<html>
<title> - LOWERING THE RATE OF UNEMPLOYMENT FOR THE NATIONAL GUARD AND RESERVE: ARE WE MAKING PROGRESS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 LOWERING THE RATE OF UNEMPLOYMENT FOR THE NATIONAL GUARD AND RESERVE: 
                        ARE WE MAKING PROGRESS? 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, MARCH 14, 2013

                               __________

                           Serial No. 113-10

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-945 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                             March 14, 2013

                                                                   Page

Lowering The Rate of Unemployment For The National Guard And 
  Reserve: Are We Making Progress?...............................     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
    Prepared Statement of Hon. Flores............................    30
Hon. Mark Takano, Ranking Minority Member, Subcommittee on 
  Economic Opportunity (EO)......................................     2
    Prepared Statement of Hon. Takano............................    30

                               WITNESSES

Ronald G. Young, Director, Family and Employer Program and 
  Policy, U.S. Department of Defense.............................     3
    Prepared Statement of Mr. Young..............................    31
    Executive Summary of Mr. Young...............................    34
Terry M. Haston, Adjutant General, Tennessee National Guard......     4
    Prepared Statement of Mr. Haston.............................    35
Ty Shepard, Director, California National Guard Employment 
  Initiative.....................................................     6
    Prepared Statement of Mr. Shepard............................    36
Theodore (Ted) L. Daywalt, CEO and President, VetJobs............    18
    Prepared Statement of Mr. Daywalt............................    38
John Barnes, Managing Partner and CEO, Panther Racing............    19
    Prepared Statement of Mr. Barnes.............................    41
Al Garver, Executive Director, Enlisted Association of the 
  National Guard of the United States............................    22
    Prepared Statement of Mr. Garver.............................    47
    Executive Summary of Mr. Garver..............................    52
David Baldwin, U.S. Army, Adjutant General, State of California, 
  Prepared Statement only........................................    52

                        STATEMENT FOR THE RECORD

The Reserve Officers Association.................................    54

                       SUBMISSIONS FOR THE RECORD

Support Letter For Work for Warriors Program (WFW) From: Military 
  Department Office of the Adjutant General, California National 
  Guard, (CNG)...................................................    58
Support Letter For Work for Warriors Program (WFW) From: SPC 
  Edwin, Lopez...................................................    59
Los Angeles Times Article `National Guard soldiers and airmen 
  face unemployment crisis'......................................    60


 LOWERING THE RATE OF UNEMPLOYMENT FOR THE NATIONAL GUARD AND RESERVE: 
                        ARE WE MAKING PROGRESS?

                        Thursday, March 14, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 9:59 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Runyan, Coffman, Cook, 
Wenstrup, Takano, and Titus.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Well, good morning. We will go ahead and get 
the hearing started. I would imagine we will have a few people 
that show up in the next few minutes, but I like to be as 
prompt as possible.
    Forty to 50 percent. That is the unemployment rate we 
continue to hear of among National Guard and Reserve units when 
they return from deployment. While some of those needing a job 
were fresh out of high school when they joined the Guard and 
had never held a job before deploying, such levels of 
unemployment have significant ramifications for not just the 
servicemember, but also for our national defense.
    Today, we will hear from the leaders of the Tennessee and 
California National Guard, who will discuss the respective 
situations in their States. We will also hear from witnesses 
who will describe their efforts to improve employment 
opportunities. I am especially interested to see how the 
private sector can promote employment, and I am delighted that 
we will hear of an unusual example from the CEO of Panther 
Racing about his efforts and his company's efforts to promote 
the National Guard.
    Before I yield to the Ranking Member, I ask unanimous 
consent to enter a March 12th article on veteran employment 
from Time magazine in the hearing record. Hearing no objection, 
so ordered.

    [The attachment appears in the Appendix]

    Mr. Flores. This is a great article that has an interesting 
perspective on the veteran unemployment situation in this 
country and I encourage all Members to take time to read the 
article.
    I now recognize distinguished Ranking Member from 
California's 41st Congressional District for any remarks he may 
have. Mr. Takano.

    [The prepared statement of Hon. Flores appears in the 
Appendix]

             OPENING STATEMENT OF HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. Good morning. I would 
like to thank our witnesses for taking the time to testify and 
answer our questions, and to particularly welcome Major Ty 
Shepard of the California National Guard this morning.
    Welcome, Major.
    Major Shepard. Thank you, sir.
    Mr. Takano. Six hundred thousand members of the National 
Guard and Reserve have been mobilized since the attacks on our 
country on September 11th. They have served with distinction to 
protect our interests here and overseas. While the unemployment 
numbers for the National Guard and Reserve veterans varies 
depending on who is doing the counting, it is clear that our 
Reserve forces have an unemployment problem. As a result of the 
wars in Iraq and Afghanistan, our National Guard and Reserve 
forces have been called upon to play an active role in overseas 
operations. Both forces changed from strategic Reserve forces 
to operational Reserve forces. Guardsmen and reservists have 
spent more and more time in theater, often participating in 
multiple missions abroad. The increase in field rotations has 
led to many of these servicemembers having an irregular 
employment record, making employers weary of hiring these 
heroes.
    With March Air Reserve Base home to Guard and Reserve units 
located in my district, I am well aware of the vast 
contributions our Reserve forces have made to our national 
defense, yet I cannot help but feel that we are letting down 
these brave men and women. Bureau of Labor Statistics reports 
that the unemployment rate is higher for Guard and Reserve 
veterans than for active duty veterans, and the younger the 
Guard or Reserve veteran is the more unlikely he or she will be 
available to find a job. These veterans need assistance 
navigating the education, training, and job opportunities 
available to them so they can reintegrate better into society 
and lead more productive and fulfilling lives. We owe a great 
deal of gratitude to these veterans, and we should do 
everything we can to assist them.
    I am pleased that this Subcommittee is holding this hearing 
and focusing on our guardsmen and reservists who are too often 
overlooked. I hope this hearing will help us understand how 
these servicemembers are performing in the job market and learn 
more about the initiatives that are helping veterans succeed. I 
look forward to the testimony and working with everyone here on 
improving the employment situation for the Reserve forces.
    Thank you Mr. Chairman. I yield back.

    [The prepared statement of Hon. Takano appears in the 
Appendix]

    Ms. Flores. I thank the Ranking Member.
    Our first panel is already seated at the table. With us 
today are Mr. Ronald G. Young, who is the Director of Family 
and Employer Programs and Policy for the United States 
Department of Defense; Major General Terry M. Haston, the 
Adjutant General of the Tennessee National Guard; and Major Ty 
Shepard, Director of the California National Guard's Employment 
Program.
    On behalf of the Subcommittee, I thank each of you for your 
service. Welcome to each of you. And just a reminder that each 
of you will have 5 minutes to summarize your statement. Let's 
begin with Mr. Young.

 STATEMENTS OF RONALD G. YOUNG, DIRECTOR, FAMILY AND EMPLOYER 
  PROGRAM AND POLICY, U.S. DEPARTMENT OF DEFENSE; MG TERRY M. 
HASTON, ADJUTANT GENERAL, TENNESSEE NATIONAL GUARD; AND MAJ TY 
   SHEPARD, DIRECTOR, CALIFORNIA GUARD EMPLOYMENT INITIATIVE

                  STATEMENT OF RONALD G. YOUNG

    Mr. Young. Chairman Flores, Ranking Member Takano, and 
distinguished Members of the Subcommittee, thank you for this 
invitation to participate in this hearing to share what we in 
Reserve Affairs have been doing in support of the Reserve 
component servicemembers, their families, and their employers. 
My full testimony has been submitted for the record, and in 
this oral statement I would like to highlight three major 
areas.
    First, I am the Executive Director for Employer Support of 
the Guard and Reserve, ESGR, and we have a network of 4,900 
volunteers across the country, committees in every State that 
work to educate employers and servicemembers about their rights 
and responsibilities under the Uniformed Services Employment 
and Reemployment Rights Act. In fiscal year 2012, ESGR engaged 
with over 161,000 employers in various activities and events. 
We attained nearly 55,000 statements of support from those 
employers supporting their men and women that are employees and 
serve in the military in the Guard and Reserve. We educated 
nearly 500,000 of the servicemembers themselves about their 
duties and responsibilities.
    The second area I will cover is about the unemployment rate 
in the Reserve component. I testified here last February and I 
spoke to the status of forces survey that had just been 
released that talked about the overall general unemployment in 
the Guard and Reserve. At that time, it stood at 13.1 percent 
for the general population, and for our E-1s and E-4s, it stood 
at 23 percent. The most recent status of forces survey went out 
to 113,000 Reserve component members, had a 26 percent response 
rate, and the figures we are seeing now are 11 percent across 
the board for the general population of the Guard and Reserve 
members, and for our junior enlisted, the rate has decreased 
from 23 percent down to 18.
    The trendline is clearly in the right direction. However, 
the job is not complete. And even at those numbers it is well 
above what the Bureau of Labor Statistics recently reported for 
the veterans population across the country. I know clearly that 
there are Reserve component units returning home with rates 
much higher, as you talked about, Mr. Chairman, in your opening 
statement.
    Since 2011, the National Defense Authorization Act, 
Congress mandated the Yellow Ribbon Reintegration Program, 
which I also am responsible for, to include employment 
assistance and employment information in the Yellow Ribbon 
reintegration events when the servicemembers return home. We 
very aggressively started to leverage the 4,900 volunteers in 
the ESGR across the country that engage with employers every 
day to look for opportunities to help our Guard and Reserve 
members get jobs.
    Just over a year ago, I launched a program called 
Hero2Hired, H2H.Jobs. That was a program that consolidated what 
the Army Reserve had been doing under the Employer Partnership 
of the Armed Forces with the armed forces into one program that 
would be applicable across all the seven seals, all the Reserve 
component. Since that time, we have had over 108,000 
servicemembers come to the Web site. It is a comprehensive 
career readiness type program. It is not just a Web portal, a 
high touch or a high tech, but we have a high-touch piece to it 
with the 4,900 volunteers and with some employment transition 
coordinators that I put in the field back in August.
    Through our contacts with ESGR, we have partnered with lots 
of different partners across the country. Just to name a few, 
the Society of Human Resource Managers. Many of our employers--
let me just stick to my script here. The National Chamber of 
Commerce. We did over 400 partner hero events with them. The 
100,000 Jobs Mission Coalition. The Job Connection Education 
Program with the Guard. The Military Spouse Corporate Career 
Network. Panther Racing, who you are going to hear from Mr. 
Barnes, doing outstanding work.
    Sir, in conclusion, to answer the question asked up front, 
are we making progress, I think we are making some progress. We 
have seen a trendline in the right direction. I look forward to 
your questions.

    [The prepared statement of Ronald G. Young appears in the 
Appendix]

    Ms. Flores. Thank you, Mr. Young.
    Major General Haston.

                  STATEMENT OF TERRY M. HASTON

    General Haston. Good morning, sir. Chairman Flores, Ranking 
Member Takano, and distinguished Members of the Committee. I am 
honored to appear before you today on behalf of the 14,000 men 
and women serving in the Tennessee Army and Air National Guard. 
I would like to begin by expressing my sincere appreciation for 
the outstanding support of this Subcommittee.
    The Tennessee National Guard has deployed more than 27,000 
soldiers and airmen both at home and abroad since September the 
11th, 2001. Although our deployments have decreased over the 
past year, we still have warriors returning to situations where 
they are unemployed or underemployed. For generations, the men 
and women of the Volunteer State have answered the call to this 
Nation without hesitation or reservation. Most return home 
after defending this great Nation and resume civilian careers 
and lifestyles that they have left. They renew their 
relationships with family and friends and reintegrate into 
their civilian workplace.
    The pressing issue we are talking about today is concern 
for well-being of our soldiers and airmen who may be facing 
unemployment in the civilian sector. When I testified in front 
of this Committee in February of 2012, Tennessee reported about 
20 to 25 percent unemployment, and our National Guard strength 
was either unemployed or underemployed, with about 3.5 percent 
of those identified as full-time students. One year later, that 
rate has dropped to 15 percent, and about 4 percent has been 
identified as full-time students. This compares to an 8.7 
percent unemployment rate for Tennessee in 2012 to a current 
rate of 7.6 percent as a whole.
    We have committed to multiple programs and strategies to 
provide the very best opportunities in helping them gain 
employment. The Tennessee National Guard understands the value 
of collaborative efforts and knows the benefit of long-term 
employee. We support our programs and are focused on providing 
careers, not just merely jobs, and we are working diligently to 
assist these patriots in finding that career.
    We continue to work with the Tennessee Department of Labor 
and Workforce Development, the Tennessee Department of Veterans 
Affairs, and our military departments, ESGR, and Reserve 
programs to conduct employment assistance workshops about once 
each month. These are 3-day events providing one-on-one career 
counseling to address issues such as writing effective resumes 
and how to make a positive impression during an interview. At 
the conclusion of each major event, employers, including 
Nissan, FedEx, Eastman Chemical, Hospital Corporation of 
America, AT&T, and a host of small businesses are available to 
interview prospective employees. Since 2010, 31 workshops have 
been conducted with 24 hiring events.
    Also in Tennessee, the Military Department is working in 
concert with the Department of Safety in our 108th General 
Assembly, and they have changed the regulation to allow our 
soldiers who are truck drivers to obtain their commercial 
driver's license with only just a written test and not having 
to demonstrate their driving skills, and this shortens the path 
to their civilian employment.
    In 2012, the National Guard Bureau's Job Connection 
Education Program, JCEP, was introduced as a pilot program in 
Tennessee, with a goal of 50 veterans hired by the 1-year mark. 
Today, only 7 months later, the program has placed in community 
businesses 503 veterans, and another 379 are in the pipeline 
for opportunities. Also, in October 2012, the Tennessee 
National Guard again joined with Tennessee Department of Labor 
and the Tennessee Department of Veterans Affairs and Dollar 
General Corporation to launch a program called Paychecks for 
Patriots. This landmark initiative brought together 90 major 
employers with immediate employment opportunities assisting 
2,400 military veterans and their spouses seeking employment. 
By December, more than 50 of the previously unemployed 
participants found work through this program.
    In adopting the National Guard Joining Community Forces 
Initiative, the Tennessee Army National Guard has coupled with 
community businesses and global corporations to create an 
Inter-Service Family Assistance Committee, with 19 Federal and 
State and local organizations reaching out to help veterans and 
their families. In an uncertain time for our Nation and our 
military, the consolidated efforts of these programs is the 
right path to ensure maximum benefit and opportunities for 
employment to assist our veterans.
    Also, a Joining Communities initiative, the National Guard 
Military and Family Readiness Program and our J9 works in 
concert with the Governor's Council on Veterans Affairs to 
support community partnerships. These programs assist 
employment opportunities and veterans through local 
organizations like Operation Stand Down, Humana Military, 
Centerstone Behavioral health groups, and educators like 
Lipscomb College.
    Hopefully, through these efforts, the Tennessee National 
Guard is defeating the perceived stigma of hiring veterans that 
could hinder their employment. We are working diligently to 
present our highly skilled servicemembers to employers, 
offering them a motivated, disciplined, drug-free asset with 
the training and potential for leadership within their 
companies. These programs, along with the U.S. Department of 
Labor Education Workshops in support of Veterans Opportunity to 
Work, the VOW Act, our Yellow Ribbon hiring fairs, and our 
outstanding relationships with the Tennessee Department of 
Labor are all positive steps in reducing the number of 
unemployed Guard members in Tennessee.
    The bottom line is that through these collaborative 
efforts, these programs, we are seeing positive results now. We 
still have a long way to go, and it is imperative that we are 
able to maintain and continue these programs, because we 
believe that we are making a difference in the lives of our 
soldiers and airmen.
    Sir, I have said many times that these National Guard 
soldiers and airmen are the best Tennessee has to offer. These 
men and women are willing to put their lives on hold and 
without hesitation and without reservation walk away from their 
families, communities, and their civilian occupation to defend 
and protect this great Nation. We owe them no less than our 
very best efforts.
    To effectively combat this problem, we have had to know the 
enemy. We have had to look beyond the reported numbers that 
may, in fact, demonstrate a false positive. In our efforts to 
understand the magnitude of the problem, we consistently strive 
to determine an accurate number of Guard members who are 
actively seeking employment. To take it one step further, we 
also have to determine if their deployment actually caused them 
to be unemployed or were they unemployed before deployment in 
Tennessee. We continually encourage unit commanders and 
leadership to identify these individuals in order to assist 
them however we can find possible. We must know that the true 
unemployment enemy is before us and what is before us before we 
can engage it. In Tennessee, we are working diligently to 
identify and successfully engage that enemy. Sir, thank you for 
allowing me to be here today, and I look forward to your 
questions.

    [The prepared statement of Terry M. Haston appears in the 
Appendix]

    Ms. Flores. Thank you, General Haston.
    Major Shepard.

                    STATEMENT OF TY SHEPARD

    Major Shepard. Mr. Chairman, Committee Members, I am 
honored to appear before you today representing more than 
23,000 citizen soldiers, airmen, and civilians of the 
California Military Department. The citizen soldiers and airmen 
of the National Guard live and work in nearly every community 
in America and provide our country with a unique military force 
that stands ready to serve the States and the Nation.
    I believe a program we designed and implemented in 
California called Work for Warriors can be part of the 
solution. The Work for Warriors program is the most effective 
job placement program of its kind. Made up of only six full-
time personnel, this program places on average two California 
National Guardsmen into jobs every day. In less than a year, 
Work for Warriors has placed over 1,000 California National 
Guardsmen into good jobs.
    Our Adjutant General views employment as a readiness issue. 
The California National Guard Command Team has learned that 
historically high unemployment and underemployment in our ranks 
was negatively affecting morale, training, accountability, 
soldier and family readiness, and good order and discipline. 
The Work for Warriors program was developed to solve these 
readiness problems.

    [The attachment appears in the Appendix]

    Major Shepard. The program developed after a conversation 
with John Barnes, CEO of Panther Racing, and our Adjutant 
General, Major General Baldwin. It then began in earnest when 
the speaker, John Perez of the California Assembly, funded the 
pilot program April of last year with a one-time $500,000 
grant. Work for Warriors uses a direct-placement model rather 
than relying on a Web site or job fairs. By leveraging the 
chain of command, we manage soldiers and airmen through each 
phase of job placement.
    The list of partner companies, currently at 92, continues 
to grow. We define a partner company as one that gives us a job 
opening with a streamlined process to hire a California 
National Guard member within a week or two, not just a company 
that clicks on the Web site or pledges support. Companies value 
Work for Warriors because they get quality, motivated, 
disciplined employees that are well trained and drug free 
through a concise and efficient direct-placement process that 
moves at the speed of business. Work for Warriors is remarkably 
cost-effective and represents significant savings to the 
government when factoring in unemployment and compensation 
costs. Successful veterans employment initiatives typically 
have a total cost of $10,000 per veteran placed. The Work for 
Warriors program is averaging $550 per cost, per placement.
    The program is especially effective for units coming home 
from deployment. We found that many units returning from 
deployments have unemployment rates well over 50 percent. This 
high rate of unemployment had remained a problem because most 
Federal programs that assist deployed reservists did not begin 
until 60 to 90 days after servicemembers have returned to 
California. To close this gap, my staff contacts units while 
they are still overseas and works with the unit leadership to 
develop a plan to immediately reintegrate unemployed soldiers 
and airmen into the civilian workforce. Once the unit is back 
in the United States, the Work for Warriors staff provides the 
unit with program information at their Federal demobilization 
site, often located in another State, and begins setting up job 
interviews for the deployed servicemembers.
    The results have been dramatic. Placing soldiers and airmen 
into jobs immediately upon their return from overseas allows 
for a more successful reintegration and can reduce behavior 
health problems, substance abuse, and domestic violence. The 
direct placement model that we have developed is transferrable 
to other States that have high unemployment or underemployment 
in their National Guard or Reserve forces. It is also scalable 
to the size of the problem and can be deactivated or 
reactivated as needed.
    Again, thank you for your interest in finding a solution to 
the difficult problem of reducing unemployment and 
underemployment in the Guard and Reserves. The California 
National Guard looks forward to working with the Committee to 
be part of the solution and getting our soldiers and airmen and 
veterans back to work.

    [The prepared statement of Ty Shepard appears in the 
Appendix]

    Mr. Flores. Thank you, Major Shepard. And thank all three 
of you for your testimony. Again, thank you for your service to 
our Nation's veterans. I have a couple of questions I would 
like to start with.
    General Haston, you have a very unusual agriculture 
development unit in the Tennessee Guard. Can you tell us a 
little bit about what they do?
    General Haston. Yes, sir. The agriculture development teams 
were put together by the former Chief of National Guard Bureau, 
General McKinley, and the former Director of the Army National 
Guard, Clyde Vaughn. And it was a collaborative effort of 
putting together about 20 agricultural experts, everything from 
bee-keeping to animal husbandry to row-crop farming, and to 
bring these folks together with a security element and send 
them into Afghanistan to work with the agricultural community 
there to show them that there is something else besides growing 
poppies. And we were getting ready to deploy our fourth team, 
and that team has recently been off-ramped and they are not 
going.
    Ms. Flores. Thank you.
    General Haston. Yes, sir.
    Mr. Flores. General Haston and Major Shepard, a question 
for each of you all. What was the unemployment rate for the 
last several of your units when they arrived back at home?
    General Haston. Sir, it depends on the type of unit that it 
is. In a lot of our combat arms units, the unemployment rate 
was somewhere between 25 and 30 percent. And it was a little 
bit lower in our combat service support companies.
    Our combat arms units seem to have some younger folks in 
it. And some of these individuals quite simply graduated high 
school, went to basic training, AIT, and then immediately 
deployed. So they had really never had a job before. And so 
they were not considered unemployed, but if you don't have a 
job, you are unemployed. And we blended them right in with our 
other folks that we were helping to get employment.
    Major Shepard. For us, sir, we started tracking that 
immediately when the program started in March. And we targeted, 
because we have such a small team, units that had 75 soldiers 
or airmen or more. Every unit since March of last year, which 
is, I believe, eight units that we were tracking that had 75 
soldiers or airmen or more, had over 50 percent employment. A 
lot of them were close to 60 percent unemployed coming back 
from theater, which was pretty shocking, considering that these 
soldiers and airmen going over there are very well trained, 
used to working long hours, and are trained with the cutting-
edge technology that a lot of the civilian workforce uses.
    Ms. Flores. Thank you.
    Major General Haston, it seems to me that you have 
developed employment programs either on your own or with the 
help of nonprofit and private groups. And so my question is 
this: To what degree did the State workforce employees or 
specifically the Federal-funded Disabled Veterans Outreach 
Program Specialists, or DVOPS, and Local Veterans Employment 
Representatives help with your programs? You are having to do a 
lot of this on your own, but yet we have got Federal programs. 
Give us the relative effectiveness of each of those.
    General Haston. Sir, you know, what we believe is there is 
strength in collaborative efforts. A lot of our airmen and our 
soldiers that were coming back just could not connect with 
these organizations. And so what we did was we formed up a 
staff section in my staff called the J9. It was an umbrella 
that covered everything from Yellow Ribbon to chaplain services 
to funeral honors to anything that can assist a veteran. And so 
what they have done is they have gone out and partnered with 
these other organizations, these Federally funded programs 
which we had not connected with yet. And, miraculously, all of 
these other folks started coming out, like Dollar General 
Store. And our Tennessee labor workforce discovered through 
just a connection that I had made in a cabinet meeting that we 
were doing this. And they immediately came on board, and these 
collaborative efforts just started snowballing, and that is how 
we came up with our event. So we just bring everybody together 
under one organization. And the more we do, the more people 
that want to join into it.
    Ms. Flores. I guess, digging into the weeds a little bit, 
did the State workforce come to you or did you have to go to 
them?
    General Haston. Sir, it was kind of a meeting engagement, I 
guess. It was at a cabinet meeting one day and then I was 
talking with our workforce development commissioner, and they 
had heard about what we were doing. And they said, why don't 
you come by and see. And it just wound up just a happenstance. 
And in working also with our ESGR, they had a connection. So 
when that trilogy tied together, it just worked.
    Ms. Flores. Okay. Thank you. And I would now like to 
recognize the Ranking Member for any questions that he may 
have.
    Mr. Takano. Thank you, Mr. Chairman.
    Major Shepard, what was the unemployment rate of the Cal 
Guard when you began this effort and what is it now?
    Major Shepard. When we began the effort, before we began 
the effort in January, the adjutant general did a sensing as 
far as with the units and pulled out. And it looked like we had 
about a little over 4,000 California National Guard members 
that were unemployed of the 21,000 servicemembers. So that is 
when he came up with a mission statement as far as for me to 
reduce unemployment by 25 percent in 1 year. We have placed 
over 1,000 soldiers and airmen since. So really, we are taking 
hold as far as to address these issues and attack those 
efforts.
    Mr. Takano. So you said 4,000 out of how many?
    Major Shepard. Twenty-one thousand servicemembers.
    Mr. Takano. So roughly 20 percent unemployment?
    Major Shepard. Correct.
    Mr. Takano. And the unemployment rate now, expressed in 
terms of percentage?
    Major Shepard. It is right around 13, 13 to 14 percent. 
What we plan on doing is in June the adjutant general is--sent 
out a memo that is going to both service components, both Air 
and Army, and it is going to mandate that by servicemember. So 
each soldier and airmen is going to register as far as if they 
are unemployed or not. And that is going to be reoccurring 
every 6 months. So, one, that will give us a larger pool of 
candidates to work with, even though we already have over 
2,000. And then we can also address all those issues, and we 
will know by city, by unit, exactly what the unemployment rate 
is. And then we will re-poll those statistics every 6 months.
    Mr. Takano. Okay. Then why, in your opinion, do you think 
the unemployment rate was so high in the Cal Guard?
    Major Shepard. Based on what we have seen, the high optempo 
over the last 10 years, the operational tempo of the war on 
terror and all the deployments has definitely hit the Guard and 
Reserves hard, especially in California. Also, a number of the 
members that are unemployed are young, just entering the 
workforce, don't have a lot of experience. And also just 
because the business. Businesses need to be effective as far as 
with their time and who they hire and manage, because the 
economy and businesses have been hit hard. So having that 
person that may potentially be gone two or three times, a 
number of our servicemembers have deployed two to three times 
out of it, doesn't make them as marketable as far as to them 
and, you know, could potentially be a detriment. So all of 
those factors definitely play in as far as those causes.
    Mr. Takano. Would your program, the Work for Warriors 
program, be more effective with additional funding?
    Major Shepard. Definitely. Right now our case managers that 
are handling our applicants are handling between 500 to 700 
servicemembers. So, again, we place about two people a day. 
That is pretty aggressive. We drill, we have drills, we have 
got annual trainings that we do. So we are not necessarily 
full-time just doing this. If we reduce that number down to, 
like, 200 to 250, maybe even less than that, we would be much 
more efficient as far as placing folks and getting people into 
jobs.
    Mr. Takano. So you have some metrics there. So what is the 
optimal level of funding?
    Major Shepard. I would say, I mean, if we could get for our 
State, and it could be sized, like I said, depending on the 
size of the State and the amount of servicemembers, but if we 
could essentially double our funding we would probably be 4 
times as efficient as far as for placing folks. And even with 
businesses, taking on new businesses and working those job 
openings, because the good thing is, is businesses want to work 
fast. They want somebody that is going to be responsive when 
they give us job openings. So we could take on more businesses 
and more job openings to start working. So both from the 
business side and the servicemember side that increased funding 
would help.
    Mr. Takano. Well, great. Is there a place for Federal 
funding, say, through a pilot program? Would that be helpful?
    Major Shepard. Definitely. There are some models that have 
been used as far as taking Federal funds and using that to hire 
folks, as far as my members are, they are State active duty, 
and put those into those positions to be able to place those 
servicemembers. Then again, the cost is $550 a placement. It is 
pretty remarkable, especially when you consider those costs 
that we talked about as far as unemployment, those other 
subsidies that are used to help those servicemembers.
    Mr. Takano. And you say unemployment is a readiness issue. 
How will the loss of funding for this program affect the 
readiness?
    Major Shepard. Well, if soldiers and airmen don't have a 
job, it is really tough to respond to a State disaster, even to 
get there. There are some examples we placed in our testimony, 
is folks that were soldiers and airmen in the California 
National Guard that are literally homeless. So having, 
obviously, employment increases the chances that they will be 
able to respond to a State disaster or a national disaster. And 
obviously, with the Federal mission, as far as deploying 
overseas, that is one of the first things they look at, is to 
see if the soldier or airman is capable of being deployed, 
based on their family care plan. If they have a solid family 
care plan, then you will be able to be a lot more able to go 
and deploy and serve the Nation overseas as well.
    Mr. Takano. Mr. Chairman, my time is about up. I yield 
back.
    Ms. Flores. Thank you, Mr. Takano.
    Does any Member wish to question the witnesses? Mr. Runyan?
    Mr. Runyan. Thank you, Chairman.
    Thank you all for your testimony. And, General and Major, 
thank for your service.
    My first question is really for Mr. Young and I think it is 
dealing with labor statistics in general. Do we count the 
people that just aren't looking for work in these statistics? 
Because I know at the national level we don't, and that 
statistic tends to get really skewed, and it is not 
representational of truly the unemployment out there a lot of 
the time.
    Mr. Young. Sir, you know, I am from DoD, so I am not an 
expert in Bureau of Labor Statistics and what they count. But 
for the survey that we conduct through the Defense Manpower 
Data System, it is a self-reporting type of a survey, and the 
individual servicemember can identify whether they are 
attending school and not even looking for work or they are 
attending school and looking for work or they are flat 
unemployed, not in school. So it allows us to differentiate as 
to who is really looking for work or who is going to school and 
not even seeking employment.
    Mr. Runyan. Okay.
    Mr. Young. That is how we know that our percentage came 
from 13.1 down to 11.
    Mr. Runyan. Well, I mean, the scary thing, I mean, 
generally labor statistics in general are a lot higher than the 
number you see every day. So that is kind of the thing I don't 
think the average American thinks about. And I was just curious 
on how your statistics were compiled. But thanks for that 
response.
    General, I know, I do it myself, I have a lot of the 
veterans hiring fairs, and it happens all the time. And I know, 
Major said, there are companies that are just happy to be on 
the list and aren't really active in it. What was the key 
component to get people motivated or was it just your sheer 
brute force, if you will?
    General Haston. No, sir. There are lots of companies out 
there who have openings that just cannot make the connection. 
And I will give you one example. There was a meeting held in 
west Tennessee by the Tennessee Truckers Association. And there 
was a gentleman that stood up and said that his company had 80 
tractor-trailers that were sitting there with no drivers in 
them because he could not get, you know, quality people to come 
in and do that. And it is just finding those opportunities and 
connecting the people.
    Dollar General Store, who is headquartered in Nashville, 
has put to work thousands of veterans and their spouses just by 
connecting through service organizations across the United 
States, where they was not making the contact between 
unemployment offices. So it is just looking at those 
opportunities.
    A lot of employers out there see guardsmen and veterans as 
a real asset, because they have characteristics. You know, we 
drug test our folks. So you are getting a drug-free employee, 
by and large. They have good work habits. And they, quite 
honestly, come to work presentable. And so employers, we have 
found just those little simple things like that, that these 
employers want to make careers rather than just give somebody a 
temporary job.
    Mr. Runyan. But, I mean, I raise that question because, I 
mean, the hardest part I think is you have willing employers 
and you have guardsmen and people looking for work. And it is 
so sporadic in bringing those people together. And, I mean, you 
bring up the thing about trucking. And I had many conversations 
on that on the Hill last year. I actually had a conversation 
with somebody in academia not too long ago talking about even 
people coming off of active duty, across the board of how much 
we invest as a country in educating our servicemembers. And 
none of the experiences they have actually had in a classroom 
transfer over into academia. We need to figure that type of 
stuff out, too, because ultimately it is an investment in our 
men and women and you are going to spend even more money to 
reinvest them to educate them in another way. And it is just an 
issue I would like to raise.
    And I yield back, Chairman.
    Ms. Flores. Thank you, Mr. Runyan.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman, Ranking Member, 
gentlemen. I appreciate your being here very much. I just 
wanted to ask you perhaps the difference in the experience you 
are finding between men and women reservists. I represent Las 
Vegas. And some of the companies there are doing a good job of 
reaching out and trying to hire veterans. You have got Caesars 
Palace doing an Enlisting Heroes program. But that is at the 
back end. I now understand better and appreciate from reading 
your testimony the problems at the front end, the reluctance to 
hire reservists because now they are so often used and for such 
long times and are called back. And that has certainly been the 
case of the brave Reserve units in Nevada. And with gaming and 
construction, which are two of our main businesses, I can see 
why that might be a problem.
    You are from California, not Nevada, but I wonder if you 
see similar problems or you might have talked to people in 
Nevada and know if that is happening or not and if there are 
differences in the kind of challenges men and women face.
    Major Shepard. We actually just gave some jobs to Nevada, 
because we had a business call us up asking for some folks to 
come over in Carson City and then over in Vegas. And we 
referred them over to some folks over there in Nevada. So we 
have got a great partnership with you.
    But I think one of the biggest pieces that I realized, and 
this has been documented in some recent Wall Street Journal and 
New York Times articles, is there are a bunch of businesses 
that are looking for veterans, and they just can't make that 
connection. And basically how do I get ahold of somebody that 
is going to be able to decipher a resume, because some military 
servicemembers typically write resumes that are with military 
speech and that doesn't translate well into the civilian world. 
So how do I read that resume, how can we get that resume 
written better, and then how do we connect? I think that 
looking at our direct placement model, as far as all business 
has to do is basically call us, tell us what they are looking 
for, what the pay range is, and what the location is, and that 
is it. Even a five-bullet email, or just a phone call to us, 
and we will go find that servicemember, get them the resumes, 
and connect with them. And that is it. Businesses want to hire. 
They like the attributes. It is just a matter of how do I find 
that person and how do I connect with that person. So it is an 
interesting problem, but the solution is easy if you just 
create that conduit as far as that initial contact to link them 
up.
    Ms. Titus. I appreciate that. But doesn't really answer my 
question.
    Would you add to that? Could you?
    General Haston. Well, ma'am, if you were specifically 
speaking between our female and our male soldiers, we have not 
seen a significant difference. I know that most recently the 
females in the combat units has been an issue. And quite 
surprisingly in our units we have not had any difference. My 
senior enlisted leader is sitting behind me here. He and I just 
flew in from El Paso, Texas, where we were seeing our 212th 
Engineer Company. They are getting ready to go to Kuwait. Both 
their commander and their first sergeant are females. And I was 
talking yesterday with the commander, and I asked her, I said, 
do you have any problem going back to work? And she is a 
schoolteacher, and this is her second deployment. And she said, 
absolutely not. She said, I have been teaching school 18 years 
and I will step, you know, right back into this.
    But our unemployment workshops and events that we have had, 
there are some events that specifically looks out at females.
    Ms. Titus. Okay.
    General Haston. But, by and large, it is balanced footing 
across the board. And we have not seen a significant 
difference. So I would tell you that our female soldiers have 
not been, you know, alienated or anything. And, in fact, they 
have had some more opportunities than our male soldiers.
    Ms. Titus. Well, I didn't think they were having problems 
at your end. I was wondering if different industries or 
businesses or professions that traditionally hire men versus 
women or women versus men cause different kinds of problems.
    General Haston. Yes, ma'am. Just as I said, the unit that 
we are sending out are construction engineers. In fact, a young 
lieutenant, female lieutenant was in charge of a construction 
project which was a test project for the unit before they go 
into theater. And I was extremely impressed with her 
capability, as was her evaluators.
    Ms. Titus. Thank you, Mr. Chairman.
    Ms. Flores. Thank you, Ms. Titus.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. It seems that we are 
transitioning right now from an operational Reserve, based on a 
very heavy tempo, to a strategic Reserve, because of the fact 
that we are drawing down, we are out of Iraq and we are drawing 
down in Afghanistan right now. So it seems, for instance, when 
I went on active duty out of retirement, back to the Marine 
Corps in 2005, because they were that desperate, because of the 
fact that in 2005 there was a stop-loss program for people, you 
know, that had reached their EAS and were ready to leave on 
active duty, individuals who had left active duty, but I think 
under 2 years were being called back and sent to Iraq and the 
Marine Corps. Reserve units were in a normal rotation cycle 
with their active duty counterparts. And the Marine Corps had 
reached out to retirees such as myself with specific skills 
sets to see if we would come back, and I agreed to come back 
and did a tour of duty in Iraq.
    And the Army National Guard and the Army Reserve, those 
units were not only sent to Iraq, but were sent to Iraq for an 
extended period of time that was almost indeterminate. Some of 
the units were, I think, doing 14, 15 months in Iraq. And that 
wasn't counting their workup time before they went. So I think 
employment was very difficult for them to return back to their 
private sector or even public sector jobs.
    Now that we are phasing down out of that situation, tell me 
about the differences and challenges. Because I think the huge 
challenge was these multiple deployments. Now that that is 
phasing down, although you certainly did mention a unit that 
was deploying out of the Tennessee National Guard to Kuwait, 
but now that it is phasing down, tell me about the difference 
in the challenges that we have now versus that we did when we 
had. During the surge in Iraq, we, I believe, had 170,000 U.S. 
military forces in Iraq, and we had an additional, I think, 
30,000 in Afghanistan. Obviously, those numbers are down now, 
being that we are out of Iraq and phasing down in Afghanistan. 
Tell me about the differences and challenges that we face in 
terms of the employment of our Guard and Reserve personnel.
    General Haston. The first thing is between operational and 
going back to a sustained force. I would say that we never need 
to go back to the Guard that we were in the 1990s and 1980s, 
because as a country we put a tremendous investment into those 
men and women and the readiness levels.
    We did have some issues, and I think we had some challenges 
across the force, as you mentioned, sir. We sent some units 
that spent 22, 23 months, counting their train-up and the time 
that they went into theater. And we finally got the issue of 
boots on the ground resolved. And we got a battle rhythm going 
in this Nation between the active forces and the Reserve forces 
in about 2006, 2007, that was able to be sustained.
    Thank you for your service going, because I do know that 
our services had to reach down and cherry pick certain skills 
and stuff of retirees and people that was in the Individual 
Retired Reserve and bring them back up. And that plugged some 
holes which we probably couldn't have otherwise done.
    But our challenges now is, is that our young men and women 
want--I am speaking for Tennessee--want to mobilize and deploy. 
I spoke with a young man day before yesterday when I was asking 
in this unit that was going to Kuwait how many multiple 
offenders, as I call them, that we had. One young man, this was 
his fifth deployment. And all of these are volunteered. And 
part of it is about patriotism and volunteerism, and then there 
is a part of it that is employment. They like doing that.
    The part that concerns me is the fact that as these 
deployments scale down, I am concerned, and we are already 
seeing a trend of young men and women leaving the National 
Guard because they are seeking employment elsewhere. And it may 
take them out of State, to another location. Now, whether they 
rejoin a Guard in that State is to be seen. But our young men 
and women in the National Guard and Reserve, that is what they 
joined for, that is what they raised their right hand for, to 
deploy. So to maintain the Guard in an operational status I 
think is critical, and it is a challenge to our senior 
leadership to make sure that we have that balance. And I think 
that as long as we are doing operational events, be it in 
Kosovo or be it in Kuwait or Horn of Africa or wherever we are 
challenged, there needs to be a balance. And we never need to 
be back to the force that we were 20 years ago, 15 years ago, 
where the Army would have a need and call on the Guard and 
Reserve and then there was just tremendous train-up period.
    Sir, in 2005, you would send a brigade combat team into 
theater, and we were training them 2 to 4 months prior to 
going, prior to deploying. Now it may be 40 to 45 days. And so 
we have shortened that. So that just goes to show that the 
Guard and Reserve is the best quality of soldiers and warriors 
that we have ever had.
    Ms. Flores. Thank you, Mr. Coffman.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chair.
    I think a lot of the points that you made are right on 
target. And perhaps part of the problem is the Guard and the 
Reserve have been too successful. You know, the regular 
components, they want you guys and gals. The problem is, is 
that this is a new phenomenon, I believe. You know, the 
multiple deployments. That didn't happen for a long, long time.
    And I think on the other side, you know, people are going 
to be very, very leery about hiring somebody and training them 
when they know there is this uncertainty. So, you know, I know 
they can, you know, whether they are discriminating, but it is 
almost below the radar. I think there is a certain 
discrimination against people because they are in that 
position. And I wonder if you had any suggestions on perhaps 
incentives for people to hire individuals in terms of maybe tax 
breaks or something like that, because they are a valuable 
commodity and I think people realize that. But the uncertainty 
and this mindset of multiple deployments, which is ending, but 
it has kind of soured the job market, at least from my 
perspective. Just see if you had any suggestions.
    And the other question I had was whether your stats 
included those people that just said, well, I am going to go 
back to school full-time. And I hope that is counted in that, 
because that would skew the unemployment figures. Thank you.
    General Haston. Yes, sir. The first question that you asked 
is about the predictability. And what we have done in the Army 
is that we have what is called an Army Force Generation cycle 
or ARFORGEN. And it is predictable in a 5-year cycle for 
Reserve component units. So at the fifth year, the individual, 
if he is in a unit that is in its fifth year of training, could 
possibly be deployed in that fifth year. That doesn't 
necessarily mean that he will. And then that unit rolls over 
back into year 1 again, so it would be another 5 years before 
that unit, unless it was a, you know, a specified type of unit 
that there was a requirement to go. But that is the 
predictability that we are trying to give our soldiers and our 
airmen.
    The second thing is, is you are right on target about the 
incentives. I have felt that all along. If you are an employer 
and you are employing a guardsman or Reserve, having some type 
of mandated or some type of codified incentive tax break, or 
whatever, would really be, I believe, would be a plus.
    The third thing that you mentioned about soldiers just not 
wanting a job. We have found that to be true. A young man comes 
back from deployment who is a high school graduate, went to 
basic training, AIT, deployed for a year, and comes back, they 
can get unemployment in Tennessee, 99 weeks. He gets his Post-
9/11 G.I. Bill. And then he is living at home with mom and dad. 
That is a pretty good deal. That is a real good deal. So some 
of these young folks are taking advantage of that.
    Major Shepard. Just a quick comment about the educational. 
That was one of the enemies that we actually identified early 
on that we didn't think would be an enemy, was the G.I. Bill, 
as far as employment, just like General Haston stated, in that 
soldiers would come back from deployment, you qualify for your 
9/11 G.I. Bill, and then they fear there are no jobs out there, 
I don't know what to do, I need to, you know, make ends meet. 
So they utilize the G.I. Bill, which pays for your basic 
housing allowance and for subsistence as a way to essentially 
put a band-aid on them being unemployed. That is one of the 
things that my team members have to attack aggressively at the 
demobilization site when you talk to soldiers and airmen, is 
that, hey, you know, save that, you know, for real purposeful 
use for yourself or for your families. There are jobs out 
there. Use that for the intended purpose versus using it as a 
band-aid to kind of counter the unemployment.
    Ms. Flores. Thank you, Mr. Cook.
    I have one last question. It is more of a curiosity 
question than anything. And you may or may not have any metrics 
on this, and it is maybe a gut-feel question. Let's assume you 
have got a high school student that is your control group in 
terms of what their employment opportunities are coming out. 
And then you take a young man or woman who has graduated from 
high school, gone into the service, had a deployment, and then 
has come back and has decided not to use their Post-9/11 
benefits immediately. In other words, they want to go to find a 
job. Who is having better success at finding employment? Is it 
the person right out of high school or the person who has 
served and has just returned from service? What is your gut 
feel or your metrics, if you have any, on who is more 
immediately capable of being employed?
    General Young, do you have any feel for that?
    Mr. Young. Sir, I do not.
    Ms. Flores. Okay. General Haston, any feel?
    General Haston. No, sir. I think both of those groups have 
equal attributes. And, you know, a young man exercising their 
9/11 G.I. Bill or whether they just decide to, you know, defer 
that, give it to their children, as we can do now, or a young 
man that is coming straight out of high school, I think it is a 
pretty balanced fight.
    Ms. Flores. Okay. Major Shepard, any feel for that?
    Major Shepard. I can't speak specifically to that. But I 
would say, again, some of those detriments, as far as 
unemployment, that some of our servicemembers look at, as far 
as the G.I. Bill, and then even just collecting unemployment. 
We have talked to members, that you have come back from 
deployment you can collect employment. Why would I want to go 
get a job that is $10 an hour if I can make more than that on 
unemployment? You know, to try to counter that. So obviously 
that skews that analogy a little bit.
    Ms. Flores. Okay. We call that on to the Budget Committee 
the implicit, the high implicit tax rate of moving from more of 
being a supported person to an employed person.
    Thank you for your testimony. General Young, General 
Haston, Major Shepard, thank you for your service. All of you 
in the audience that have served, thank you for your service to 
our country. We appreciate it. This panel is excused. And now 
we would invite the next panel to come and be seated.
    With us today is Mr. Ted Daywalt of VetJobs.com; Mr. John 
Barnes, the Managing Partner and CEO of Panther Racing; and Mr. 
Al Garver from the Enlisted Association of the National Guard 
of the United States. And after you are seated, we will start 
with Mr. Daywalt.

  STATEMENTS OF THEODORE (TED) L. DAYWALT, CEO AND PRESIDENT 
VETJOBS; JOHN BARNES, MANAGING PARTNER AND CEO PANTHER RACING; 
AND AL GARVER, EXECUTIVE DIRECTOR, ENLISTED ASSOCIATION OF THE 
              NATIONAL GUARD OF THE UNITED STATES

    Mr. Flores. Well, thank you for joining us today, and we 
appreciate what you do for our veterans. I would like to start 
with the testimony of Mr. Daywalt.

             STATEMENT OF THEODORE (TED) L. DAYWALT

    Mr. Daywalt. Good morning, Chairman, Members and staff of 
the Subcommittee. I am very pleased that HVAC is again 
addressing the issue of National Guard and Reserve 
unemployment.
    The short answer to are we making progress is an emphatic 
no. While some State National Guard groups have had good 
success, nationally, the unemployment rate for the NG&R is 
rising, and I predict that it is going to continue to rise for 
a number of different reasons.
    California is doing a great job, Tennessee is, West 
Virginia, but a lot of the other States are running into 
problems. Specifically to the Army National Guard, at the time 
the National Guard Bureau stopped producing the Current 
Employment Index this past fall, the national unemployment rate 
for the Army National Guard was right at 21 percent, 3 times 
the national veteran unemployment rate. And that isn't a 
voluntary survey. That is a national survey by bodies.
    I would estimate the unemployment rate has now risen to 
something between 28 and 30 percent, but since there is no 
longer an effort by DoD or NGB to track the rate nationally, we 
don't know for sure where it is at, but we do know it is high. 
I understand that bureaucracies do not like to confront 
uncomfortable information, but hiding it or denying it does not 
fix the problem. I find this behavior particularly strange 
since NG&R now represents over 50 percent of our total fighting 
forces.
    At the Veterans of Foreign Wars-sponsored VetJobs we see 
over 20,000 veterans a day going to our site. We find that for 
the most part those veterans who have totally separated from 
the military are able to find work. That is why the overall 
unemployment rate has always been lower than the national 
unemployment rate.
    That is not to say some transitioning military are not 
having problems in this stagnant economy, many are. But if the 
veteran remains active in the NG&R, they are having much 
greater problems finding work. I give examples in my written 
testimony, and I have covered this at length in previous 
testimonies.
    The call-up policy implemented in 2007 was flawed and it 
continues to be flawed, but planners at DoD still do not seem 
to understand that an employer cannot run their companies with 
their most important asset, the human capital, is being taken 
away for 12 to 18 months at a time. I would imagine you would 
have trouble running your staffs in your offices if they were 
gone for 12 and 24 months multiple times.
    The result has been that many employers will not now hire 
as a new employee an active member of the NG&R, and in fact now 
look for ways to remove active duty members from the National 
Guard and Reserve from their companies, to the point where some 
employers now are offering members of the Guard and Reserve who 
hit the 20- or 40-year mark very large bonuses to quit.
    Like it or not, the component members of the NG&R actually 
belong to the civilian employers who are loaning the NG&R 
members to DoD, not the other way around. This has placed a 
significant number of NG&R members in the tenuous position of 
trying to serve two masters at the same time.
    To be fair, in the recent wars, DoD was faced with the 
challenge of providing troops to fight the wars, but DoD could 
not politically implement the draft and Congress would not let 
DoD expand the size of the military. The result was DoD used 
the National Guard and Reserve as a backdoor draft. I would 
have probably done the same thing, except I think I would have 
been much more honest with the employers and the component 
members about what was going to happen and found ways to assist 
both parties, and I don't think I would have denied for 5 years 
that there was no problem.
    History has shown that every time America reduces its 
active forces, such as after World War II, the Korean War, 
Vietnam War, when the Clinton administration reduced the 
military in the 1990s, the use of the National Guard and 
Reserve went up. Now that the current administration has 
reduced the active duty to where the NG&R are larger than the 
active forces, I perceive the use of the NG&R is increasing 
again.
    In my written testimony I have made suggestions to help 
alleviate the employment problems of the members of NG&R. 
Having studied this issue for 10 years, I found there is no 
silver bullet and it won't be cheap. Anything that you try to 
do will cost money.
    My purpose here is to raise awareness of what could be done 
to help alleviate the employment problem for members of the 
NG&R until something can be done about the policy. A more 
balanced way to utilize NG&R needs to be found so that the 
component members can keep a continuum of employment. If one is 
not found, we will have relegated the members of the National 
Guard and Reserve to being third class citizens, expected to 
fight and defend America, die and be wounded, and return to a 
country whose DoD policies make it next to impossible for many 
of them to find meaningful employment and have a continuum of 
employment with an employer.
    This is not the fair, nor is it the right thing to do to 
those who defend our freedoms. This concludes my presentation, 
gentlemen. I would be happy to take any questions.

    [The prepared statement of Theodore (Ted) L. Daywalt 
appears in the Appendix]

    Mr. Flores. Thank you, Mr. Daywalt.
    And I believe before Mr. Barnes testifies that he would 
like to show a short video from Panther Racing.
    [Video shown.]
    Mr. Flores. Wow. Mr. Barnes, you are recognized for 5 
minutes.

                    STATEMENT OF JOHN BARNES

    Mr. Barnes. Thank you. I raced in front of 400,000 people. 
Never thought about being here today.
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to be here today and discuss our partnership 
between the National Guard and Panther Racing and collaborative 
effort to address Guard unemployment. I am John Barnes, CEO of 
Panther Racing. I will tell you, we are honored to follow the 
leadership provided by General Grass, Lieutenant General 
Ingram, and the 54 Adjutant Generals who share our passion in 
solving unemployment of National Guard soldiers.
    I will never forget my experience in arriving at Brooke 
Army Hospital in 2008 meeting a wounded warrior wearing a 
smiley T-shirt with the words, got burns. When I am having a 
bad day, I think of him. He never complained. In a silent way, 
his courage made a huge statement to me in my life: Life goes 
on. Don't complain. Finish the mission. And get better.
    The privilege of visiting Brooke and other hospitals and 
meeting our Nation's heroes and seeing their courage and 
determination is unlike anything I have ever experienced in my 
life. Long rehabilitations can be very lonely. Our support can 
give them hope. We assist with troop morale daily by providing 
thousands of National Guard soldiers and families with a day at 
the races. Our infield training unit helps educate our soldiers 
regarding employment and other permanent issues relative to 
Guard life.
    Years ago, at a race in Kentucky, I learned from our 
hometown hero who had been in impact zones with several IED 
explosions about the prevalence of traumatic brain injury. He 
had been taken offline, but he shared stories about his 
comrades who had suffered TBI as well. I asked him what was the 
level of G-force impact from their blast. I was surprised to 
learn that they were not recorded.
    Racing deals with serious head injuries every day. We 
utilize data recorders and ear accelerometers to measure the 
impact of a driver's accident, which is then used for treatment 
and development of better equipment. As the video said, we 
shared this with the Army. Now with modification and 
repurposes, we have had over 4,000 of them been deployed.
    Today we are discussing designs of seats used in an IndyCar 
that potentially could help helicopter pilots who have a high 
rate of spinal injuries. So why is this important? Because we 
see the many assets in Panther's toolbox as the Guard's assets. 
These synergies have provided us with the foundation to build a 
successful unemployment program.
    We formed partnerships, as it said, with ESGR, the Chamber 
of Commerce, each respective State's National Guard leadership 
and employment outreach coordinators. Our efforts entailed 
engaging local business leaders at races and in nonracing 
states where we experience Panther Racing Hire Our Guard. We 
raised $1.1 million in private capital last year to do that 
program.
    When business leaders have a bucket day while experiencing 
the Panther program, we know they are leaving with a greater 
understanding of the Guard, those business leaders who will 
advocate policies and practices that support our veterans. A 
guardsman with a good job at a company that respects and 
supports their service is a National Guardsman that our nature 
will retain for a long time.
    So we are a Pied Piper of sorts, taking the most effective 
parts of many existing programs, combining them with our 
program to craft the perfect environment where employers are 
set shoulder to shoulder with National Guard soldiers to hear 
about their attributes and their value to communities, our 
State, and of course our Nation.
    We have learned that this engagement is simple human 
psychology. In life, people do not gravitate to things they do 
not know. The decision-makers we meet highly respect the 
military, but are intimidated in how to engage them.
    We use racing to promote Guard unemployment and to build a 
bridge from the unknown to the known, and it really works. Now 
we must encourage others to do so. Panther would like to bring 
our program to the 15 largest sporting events in our country. 
By combining the star power of major sporting events with the 
emotional impact of our hometown hero stories and the respect 
employers have for military leaders, these will be unique, 
effective forums for finding jobs and growing the base of Guard 
friendly employers.
    Picture a Guard event at the Super Bowl with the Harbaugh 
brothers speaking to our guests about this issue. Imagine a 
fantasy camp where you can learn from notable stars and coaches 
in the morning and in the afternoon learn about the Guard's 
unemployment programs and how they can help them succeed.
    Finally, this issue goes much deeper than unemployment. We 
have learned how the lack of a job can adversely affect these 
soldiers in many ways. We will not be successful for those who 
have served unless we ensure those who are affected by PTS also 
have their opportunity. Greater awareness, education, and 
training tailored to contest myths about PTS are needed in the 
mental health community.
    Medal of Honor recipients are taking a leading role in 
combatting suicide and educating employers regarding PTS. 
Typically, if a company has a choice between two candidates, a 
soldier affected by PTS and an unaffected civilian, they 
normally choose the one with less risk versus the one with 
potentially more reward. Much more has to be done in this 
critical area.
    I am very humbled and honored to be here today. We feel a 
special calling to ensure those who have served our country 
have the same opportunities for themselves and their families 
that they have fought for us to have. I invite each of you to 
visit us at Panther Racing, see what we do and experience it, 
and please help us to discover new ways to take our private-
public partnership can do more with it to honor our guardsmen 
and their spouses to find meaningful employment.
    Thank you so much for this opportunity. I welcome you with 
your questions and comments.

    [The prepared statement of John Barnes appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Barnes. I suspect many of us 
will take you up on your offer.
    Mr. Garver, you are recognized for 5 minutes.

                     STATEMENT OF AL GARVER

    Mr. Garver. Chairman Flores, Ranking Member Takano, 
distinguished Members of the Subcommittee, on behalf of the 
414,000 enlisted men and women of the National Guard and the 
47,000 active members of EANGUS, thank you for the opportunity 
to testify today. I would also like to thank this Subcommittee 
for some landmark achievements, such as the recognition of the 
Title 32 service toward the Post-9/11 GI Bill benefits and the 
development of the TRICARE Reserve Select program. More than 
140,000 guardsmen now qualify for those Post-9/11 GI Bill 
benefits, which will surely translate into more stable and 
better-paying jobs, and there are nearly 50,000 National Guard 
members, most with families, that are currently covered by 
TRICARE Reserve Select.
    Since 9/11, there have been 750,000 individual deployments 
of National Guard members and more than 50 percent of those 
guardsmen are now combat veterans, most with multiple 
deployments. These men and women are no longer the weekend 
warriors of yesteryear, but battle-tested citizen soldiers in 
an operational Reserve, too many of whom are returning home to 
find their only option is the unemployment line.
    It has been estimated by varying sources that 20 to 40 
percent of returning National Guard soldiers and airmen are 
unemployed. These numbers vary greatly from State to State, and 
we have no way to capture an accurate national number. There 
are many positive efforts under way to affect this elusive 
unemployment picture for National Guard members. ESGR, Employer 
Support of the Guard and Reserve, is still a key player, and 
they are working directly with EANGUS to give our unemployed 
members the ability to link directly with their H2H database to 
have job listings in their area flow directly into their 
personal email. The U.S. Chamber has its Hire our Heroes 
program, and many major companies are making commitments to 
hire veterans, such as Wal-Mart's recent pledge to bring 
100,000 veterans into the workforce. And just yesterday, UPS 
pledged to hire an additional 25,000 veterans.
    Progress is also being made to fast tracking the 
certification of commercial driver's licenses for guardsmen who 
have already been trained to handled military big rigs. 
Southwest Truck Driver Training boasts a 92 percent placement 
rate for these troops and goes out of their way to ensure that 
these men and women are placed with military-friendly companies 
that understand the unique needs of guardsmen and reservists.
    If Congress and the commanders of our National Guard and 
Reserve are serious about tackling these unemployment problems, 
we need to look at all opportunities, including the vocational 
trades, where there are immediate job openings available.
    But I know you asked us here to offer additional solutions, 
and we have some specific primary proposals I will convey 
verbally and several others in our written testimony. One 
proposal is to encourage small business owners who hire 
guardsmen or reservists to provide a stipend that pays for 
their TRICARE Reserve Select policy rather than their more 
expensive group policy. In doing so, the troop would be getting 
some of the best coverage available and the business owner 
could save anywhere from $3,000 to $10,000 or more per year, 
per individual. This would become an immediate incentive to 
hire guardsmen and reservists. Best of all, troops are already 
entitled to purchase these policies so no new program has to be 
developed or paid for by Congress or the States.
    Next, while the sequester has triggered the partial 
furloughs of 800,000 DoD civilians, there is one sub group of 
those civilian employees that justifies an exemption, National 
Guard military technicians. Currently there are 52,000 full-
time military technicians wearing their U.S. Army and Air Force 
uniforms to work every day, representing more than half of the 
National Guard's full-time force. While they are slated to be 
furloughed along with other DoD civilian employees, their 
unique status should merit an exception.
    What makes them distinct is their title, military 
technicians. Their predecessors were known as civilian 
technicians, and it was Congress that decided they were more 
military than civilian, authorized them to wear their military 
uniforms to work every day, and awarded them that title along 
with expectations of filling roles and responsibilities beyond 
that of their former duties.
    As we speak, 7,600 temporary military technicians are 
expected to be laid off as a result of this sequester, and the 
remaining 52,000 full-timers will be subject to the 20 percent 
furlough, effectively making them underemployment. The 
President, Congress and the DoD all agreed to exempt uniformed 
personnel from the sequester to limit the impact on military 
readiness. We believe the impending furlough of National Guard 
military technicians violates that intent. We encourage you to 
support HR 1014, introduced by Congressman Steven Palazzo, 
which would exempt these technicians from furlough.
    In closing, we truly believe the vast majority of employers 
want to hire veterans, and that is one of the reasons why the 
national unemployment rate for all veterans is approximately 7 
percent, yet the National Guard unemployment rate is estimated 
to be at least double that number and some places much higher 
than that. We believe many employers are more likely to hire 
the veteran who has already fulfilled their military 
obligations rather than a guardsman or reservist who may be 
called back to duty for 12 to 18 months in a 60-month period. 
To counter that, we must work with the private sector to 
incentivize and show small, medium, and large businesses that 
hiring these patriots is the best possible choice they can make 
for the success of their company and our Nation. This concludes 
my remarks.

    [The prepared statement of Al Garver appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Garver. We are going to drill 
into the points you made about the impact of sequestration on 
the military technicians. It is something that I was not aware 
of. So thank you for that.
    I will now begin the questioning. Mr. Barnes, excluding 
your contract with the National Guard, how much money have you 
raised from the private sector to support your program to 
promote the National Guard?
    Mr. Barnes. It was about $1.3 million or $1.4 million, I 
think total. The year before that, it was a little bit less. 
But we continue to work daily to try to address that.
    Mr. Flores. That is outstanding.
    Mr. Daywalt, can you go into more detail regarding your 
assertion of members of the Guard and Reserve being laid off 
before the 60-day window that is covered by USERRA, and do you 
have any data to back that up?
    Mr. Daywalt. Yes, sir, we do. We brought this up 5 years 
ago, right after the 2007 policy was put into place. I will 
give you an example of one which was the Iowa National Guard. 
You go back to about Day M minus 160 is when it was announced 
they were being called up; 750 people got laid off. Down to 
about day 65, 70, nobody got laid off after the Day M minus 60. 
It is because by then they generally have their orders in hand.
    Another good example would have been the 877th out of 
Augusta, Georgia. We hooked them up with the CNN reporters that 
did the program ``Vets Wanted''; 140 of those people lost their 
job before they deployed. CNN went over to Afghanistan, 
interviewed them, and then came back and followed them for 5 
months after they got back. It was a 1-hour special. It was 
really powerful. At the end of 5 months, only eight people had 
gotten a job and all of them said on film--everything goes 
great until I mention I am in the National Guard.
    This is a common problem. I know a lot of people tried to 
deny it was going on, but it does. You can talk to anybody out 
in the ESGR or LVERs or DVOPS, you know, people all over the 
country see this.
    I will give you another good example. When the South 
Carolina Guard was called up a third time, on Monday, Tuesday, 
and Wednesday we received about 20 phone calls from people that 
were in the South Carolina National Guard. They had been laid 
off, and it just happened that the past Thursday it was 
announced their brigade was being called up.
    We have got lots of examples like that, sir. It is a 
reality. I know some people try to deny it, and they have 
bureaucratic reasons for that, but I live in Realsville. Every 
day we are getting phone calls in our offices from people that 
this is happening to, and it is really a defensive mechanism by 
industry because they can't run their companies when your 
employees are taken away for 12, 18, and 24 months. Anybody in 
private business understands that, which is why we are seeing 
another defensive mechanism.
    I have got six examples. I am trying to get it all 
documented so I can present it. But companies are now going to 
members of the National Guard and Reserve who are hitting their 
20-year mark and offering them large bonuses to quit. Now, as a 
former CEO of large companies--this company here is not quite 
as large as what I used to have--but it is a good business 
decision. If I have a key employee who has been called away 
twice and it has hurt the company a lot, paying out a $100,000 
bonus, in one case we were told it was a $300,000 bonus after 
taxes, that is good business sense because it hurts the 
company.
    I hear from a lot of CEOs that if they were given a cash 
stipend, much like the way that the British government does it 
with their territorials, when they call up a territorial, which 
is their equivalent to our National Guard, the government pays 
the company so that the company can hire a contractor to come 
in and do the work. I have seen in Australia, several different 
countries around the world do that, and it is a good way to get 
the civilian employers to support it. Like I said, anything 
that you are looking at is not going to be cheap. I know 
everybody wants a silver bullet that doesn't cost anything, but 
that doesn't exist.
    Mr. Flores. Thank you, Mr. Daywalt.
    Mr. Barnes, in your written statement, you said that you 
believed that Operation Hire Our Guard could be expanded to 
other sports and entertainment platforms. Have you been able to 
reach out to other sports groups such as the NFL, considering 
Panther Racing's connections with the 49ers' coach, Jim 
Harbaugh? I think you kind of gave us an indication of that in 
the video, but can you expand on that?
    Mr. Barnes. Yeah. Actually, we have, and we are continuing 
to do that. We put together a coalition of sports partnerships 
last year and to address some different issues here. You know, 
give you an example. Today after we leave here, our driver and 
I are going to go to Walter Reed, and before us is Joe Montana. 
He is going to go through first. Now, who do you think more 
attention is going to be given, us or Joe Montana? You know, so 
it is him.
    And so we think that it is proven to us that it really has, 
you know, a lot of validity and a lot of growth that we can do 
there. We can get people there, get their attention, get them 
on board, get the star impact made, and we can make a 
difference there. We have so far.
    Mr. Flores. Thank you, Mr. Barnes. And I have gone over my 
time limit, so without further ado, I am going to turn it over 
to Mr. Takano for his questions.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. Daywalt, I was interested in your term backdoor draft. 
You know, when I was a little boy, I remember the National 
Guard being the place where people went to avoid situations 
where they would actually be called up, but in our most recent 
engagement in Iraq and Afghanistan, it turned out that it was 
exactly the place that you would go to meet those engagements.
    I am curious, we are looking at the Reserves and the 
National Guard as a way to kind of be cost-effective and save 
money from having to employ active duty troops, but we have got 
to solve this problem. I served on a board of trustees and 
every once in a while I had to approve the leave of logistics 
personnel for the Air Force at our nearby Air Force base and 
that was just one person out of our operation, but I know that 
our sheriff is now reluctant, I think, to hire a large number. 
And plenty of military folks like to go into law enforcement, 
of course, but he is reluctant because if a large number of his 
force is going to be called up at any moment, that leaves him 
with a staffing issue.
    So am I right, this is a rather unprecedented situation we 
have with National Guards and its relationship to employers, 
both public and private?
    Mr. Daywalt. Yes, sir, it is an unprecedented situation. It 
goes back to when the Federal reservists were created, the Army 
in 1908 and the Navy in 1915. At that time, there were a lot of 
articles written about who actually owns the asset. Is it the 
War Department back then or is it the civilian employer? It was 
never legislated, and so it became that 900-pound gorilla that 
has been sitting in the corner. But it also helps, when you 
look at the unemployment problems, to separate the Guard from 
the Reserve from those who transition off, because when a 
Federal reservist comes back, they go back to work, you don't 
have to worry about them until something else happens. A 
National Guard person comes back, then you have an emergency in 
the State, who is it that gets called up? The National Guard. 
So they are deployed to Afghanistan or Iraq or elsewhere around 
the world, and when they come back you have an emergency, they 
get called up again, and that is one of the reasons why a lot 
of employers are reluctant to take on someone from the National 
Guard because they know, yeah, they may or may not get called 
up.
    I will give you an example. In Georgia, we had several 
brigades that came back and then we had heavy flooding in 
Columbus and Macon, Georgia, and several companies were called 
up to help fight the flooding, and guess what, two of those 
companies were people who had just come back from Afghanistan. 
So put yourself as an employer, your employee has been gone for 
18 months, and he has been back almost a month and he comes in, 
oh, by the way, I am going to be gone for the next 3 weeks 
because of flooding down in Macon? How do you react to that as 
an employer? And how do you react as an employer when DoD 
guaranteed you that you would not lose a member of the Guard or 
Reserve for more than 1 year in 6, and then they get called up 
every other year?
    So that is why they are kind of a little reluctant to hire. 
It is unprecedented. And if you keep treating the NG&R like 
this, you are going to make them a subclass, I call it a third-
class citizen.
    Mr. Takano. Are we thinking of this as a phase because of 
the particular situation we are in? It is likely to pass given 
that we are going to draw down in both these areas? Or can we 
anticipate seeing high unemployment rates?
    Mr. Daywalt. No, sir. I like your term phase, because what 
is happening now, as I pointed out before, every time you draw 
down the active forces, the use of Guard and Reserve go up. You 
read about all these active Army brigades come back from 
Germany and South Korea. What you do not read about is they are 
being replaced by National Guard and Reserve brigades because 
of treaty obligations. You take AFRICOM. The bulk of the people 
over there are Guard and Reserve. In fact, one of my employee's 
husband is in the Marine Corps Reserve, he just came back from 
18 months in Afghanistan, had been back and they said, oh, we 
need your MOS at AFRICOM, over he goes.
    Since we are drawing down even more troops, the use of 
Guard and Reserve is going to go up. This problem is going to 
be exacerbated even more over the next couple of months or 
years.
    Mr. Takano. You are talking about years, but how can we 
talk in terms of 10 years, 15 years? Are we likely to see this 
stabilize downward?
    Mr. Daywalt. Sir, I don't see it stabilizing unless you 
change the call-up policy or increase the size of the active 
duty, because you will still have obligations, still things you 
have to do, and if you don't have the active duty, the people 
to do it, you are going to grab your bodies from wherever you 
can, and under the current political situation that is the 
National Guard and Reserve.
    Mr. Takano. All right. Thank you so much.
    Mr. Flores. Thank you, Mr. Takano.
    Mr. Coffman.
    Mr. Coffman. Thank you, Chairman.
    For anybody on the panel. I just want a point of 
clarification that in current law is it focused on reemployment 
rights for the Guard and Reserve as opposed to what happens in 
terms of pre-deployment? In other words, if I got your 
testimony right, that maybe a loophole in the current law is to 
say, okay, I know you are going to be mobilized, so I am going 
to go ahead and lay you off now so to relieve myself of the 
responsibility as an employer for having you gone and then 
having to reemploy you when you come back. Is that correct? 
Anybody?
    Mr. Garver. Yes, that is our understanding, that the 
existing laws are most heavily written to favor the returning 
member, and if they found this escape clause to prevent that, 
it violates the intent but not the law itself.
    Mr. Daywalt. He is correct.
    Mr. Coffman. So how would you rewrite that then?
    Mr. Daywalt. We have looked at that several times with the 
delegation from Georgia. And something you need to understand, 
if you extended USERRA to when someone goes into the military 
reserve or the National Guard, nobody will ever hire them 
because they know that they are going to get called up. That is 
why I say you got a problem with your call-up policy and you 
need to ameliorate or at least to compensate the employers for 
losing their--if I came to you, sir, and said, okay, we are 
going to take away your entire staff for 18 months, how 
effective could you be here in the Congress?
    That actually happened with a company in Houston. There 
were 22 of their CNC machinists were in the Houston brigade 
when it got called up and he went out of business.
    Mr. Coffman. First of all, I don't want to answer that 
question with my staff present.
    Mr. Daywalt. I could also use the example of Tattnall 
County down in Georgia when one of our brigades was called up.
    Mr. Coffman. Right.
    Mr. Daywalt. Everybody, all the jailers happened to be in 
the National Guard. They had to shut down the jail.
    Mr. Coffman. Well, I think we have to prepare for a worse 
case scenario that we are going to be back in the situation we 
have been in. I think now, I think the call-ups are less about 
units, more about individuals, sort of the IMA individual of 
augmentee, IA or however you classify it based on the 
respective service. So it is still going to be an issue. But I 
am concerned about the notion. And I realize the downside if we 
are talking about the law, would be, would you hire these 
people, but I still think it is problematic to have such a 
gaping loophole in the law as to the intent to say, well, I am 
okay to lay you off, knowing prior, I know you are going to be 
in receipt of orders, so I am going to lay you off now and that 
way I have no requirement to rehire you under the law.
    Mr. Chairman, I yield back.
    Mr. Flores. Thank you, Mr. Coffman.
    Does anyone have any other question? I am going to start 
with one question and we will see if we can have another round 
of questions, if that is all right.
    Mr. Garver, you gave a suggestion regarding TRICARE 
Reserve, and I think you are suggesting that employers pay the 
premium. Can you expand on that for me?
    Mr. Garver. I can. I can give a personal example with 
myself. I am a serving reservist, an E9 in the Air Force 
Reserve, and we have a staff of eight. We are a small business, 
EANGUS is, and we budget $7,200 per employee just to cover 
their individual health care costs. My cost is $195 a month, 
and so as a benefit to EANGUS, I just simply purchase my own 
TRICARE Reserve Select and opt not to take that health care 
cost, because it is a big cost savings, to our organization. 
That is why I am aware of this.
    Each State, however, has different requirements based on 
their insurance commission of whether or not an employer can 
offer multiple insurance. There are some States with some 
restrictions about, you know, if you buy a group policy, that 
is all you can buy. What we would like to figure out, if there 
is a way that employers can directly pay the TRICARE Reserve 
Select on an auto payment basis so it relieves that pressure 
from the troop, because we also have a lot of troops that if 
they miss a payment, they get kicked out of the system.
    But I am here to tell you if you are paying $7,200 on an 
individual and you are paying as much as $15,000 on family 
coverage, if you offer that, the savings could be significant, 
and it would be a benefit because, again, the system already 
exists so you don't have to create anything new other than 
somehow incentivize the small business to utilize that.
    Mr. Flores. Thank you, Mr. Garver.
    I will now recognize Mr. Takano for any final questions and 
closing comments.
    Mr. Takano. I would like to just follow up on that 
question, Mr. Chairman. Are you suggesting that somehow we 
incentivize small businesses by actually covering the cost of 
that health insurance?
    Mr. Garver. No, not by the Congress covering it, or not by 
the United States covering the cost of that, the small business 
paying the premium. But it would be cheaper for them to pay the 
premium on TRICARE Reserve Select than what they currently 
offer their employees.
    Mr. Takano. So instead of their group plan, they would be 
able to pay the health care for that ex-servicemember, and that 
is generally a lower premium?
    Mr. Garver. Yes. It is only, I believe, $60 for an 
individual and $195 and change for a family.
    Mr. Takano. Oh, wow.
    Mr. Garver. I have a wife and five children that are all 
covered for $195 a month.
    Mr. Takano. Okay. Thank you.
    Mr. Flores. Thank you, Mr. Takano. I would like to make one 
final observation regarding employment among those serving in 
the Guard and Reserves, and for that matter any veteran. We 
have heard today about the employment programs that are being 
run by State Guard organizations, and I applaud you and them 
for trying to take care of their people. That is what good 
leaders do.
    But I must ask a rhetorical question for now, and that 
question is this: With literally billions of dollars going to 
the Department of Labor, including $261 million requested for 
fiscal year 2013 for Veterans' Employment and Training Service, 
the question is, why must Guard units dedicate scarce resources 
to help their servicemembers find a job? And we will be digging 
into that as this Subcommittee proceeds with its business this 
year.
    In closing, I would like to thank each of you for your time 
here today.
    Mr. Daywalt, thank you for being here.
    Mr. Barnes, thank you. Thank you for your service to our 
veterans.
    And, Mr. Garver, thank you as well.
    I want to also wish Mr. Barnes a successful and safe 
IndyCar season and victory in the Indy 500 in May.
    Finally, I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
any extraneous material in the record of today's hearing. 
Hearing no objection, so ordered.

    [The attachments appears in the Appendix]

    Mr. Flores. We are adjourned. Thank you.

    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bill Flores
    Good morning. 40 to 50 percent. That's the unemployment rate we 
continue to hear of among some National Guard and Reserve units when 
they return from deployment. While some of those needing a job were 
fresh out of high school when they joined the Guard and never held a 
job before deploying, such levels of unemployment have significant 
ramifications for not just the servicemember, but also for our national 
defense.
    Today, we will hear from leaders of the Tennessee and California 
National Guard who will discuss the situations in their states. We also 
will hear from other witnesses who will describe their efforts to 
improve employment opportunities. I am especially interested in how the 
private sector can promote employment and I am delighted that we will 
hear of an unusual example from the CEO of Panther Racing about his 
efforts to promote the National Guard.
    Before I yield to the Ranking Member, I ask unanimous consent to 
enter a March 12 article on veteran employment from Time magazine in 
the hearing record.
    Hearing no objection . . . . so ordered.
    This is a great article that has an interesting perspective on the 
veteran unemployment situation in this country and I encourage all 
Members to take time to read the article.
    I now recognize the distinguished Ranking Member from California's 
41st Congressional District for any remarks he may have.

                                 <F-dash>
                 Prepared Statement of Hon. Mark Takano
    Thank you Mr. Chairman.
    Good morning. I would like to thank our witnesses for taking the 
time to testify and answer our questions and to particularly welcome 
Major Ty Shepard of the California National Guard this morning.
    Six hundred thousand members of the National Guard and Reserve have 
been mobilized since the attacks on our country on September 11. They 
have served with distinction to protect our interests here and 
overseas. While the unemployment numbers for National Guard and Reserve 
veterans varies depending on who is doing the counting, it is clear 
that our Reserve forces have an unemployment problem.
    As a result of the wars in Iraq and Afghanistan, our National Guard 
and Reserve forces have been called upon to play an active role in 
overseas operations. Both forces changed from strategic reserve forces 
to operational reserve forces. Guardsmen and Reservists have spent more 
and more time in theater, often participating in multiple missions 
abroad. The increase in field rotations has led to many of these 
servicemembers having an irregular employment record, making employers 
wary of hiring these heroes.
    With March Air Reserve Base - home to Guard and Reserve units - 
located in my district, I am well aware of the vast contributions our 
Reserve forces have made to our national defense. Yet, I can't help but 
feel that we are letting down these brave men and women. The Bureau of 
Labor Statistics reports that the unemployment rate is higher for Guard 
and Reserve veterans than for active duty veterans, and the younger the 
Guard or Reserve veteran is, the more unlikely he or she will be to 
find a job. These veterans need assistance with navigating the 
education, training and job opportunities available to them so they can 
reintegrate better into society and lead more productive and fulfilling 
lives. We owe a great debt of gratitude to these veterans and we should 
everything we can to assist them.
    I am pleased that this Subcommittee is holding this hearing and 
focusing on our Guardsmen and Reservists who are too often overlooked. 
I hope this hearing will help us understand how these servicemembers 
are performing in the job market and learn more about the initiatives 
that are helping veterans succeed. I look forward to the testimony and 
working with everyone on improving the employment situation for the 
Reserve forces.

                                 <F-dash>
                 Prepared Statement of Ronald G. Young
                               TESTIMONY
    Chairman Flores, Ranking Member Takano, and Members of the 
Committee, thank you for your invitation to participate in this 
hearing. I have been invited in my capacity as the Executive Director 
of Employer Support of the Guard and Reserve (ESGR). However, ESGR 
represents only one of three of my assignments as the Director, Family 
and Employer Programs and Policy (FEPP) in the Office of the Assistant 
Secretary of Defense for Reserve Affairs. FEPP aligns programs of 
support for our Guard and Reserve Service members under one 
organization to more effectively and efficiently assist our Service 
members via ESGR, the Yellow Ribbon Reintegration Program (YRRP) and 
Individual & Family Support Policy (IFSP). I welcome this opportunity 
to provide you an overview of the support ESGR, in partnership with 
YRRP, is providing to our Reserve Component Service members. My 
testimony will cover the following three areas:

    - The efforts of ESGR to help educate both members of the National 
Guard and Reserve and employers about the rights afforded to Service 
members under the Uniformed Services Employment and Reemployment Rights 
Act (USERRA).

    - Latest statistics on the rate of unemployment among Reserve 
Component Service members.

    - Initiatives taken by the Department of Defense to reduce 
unemployment rates among members of the National Guard and Reserve.

    The efforts of ESGR to help educate both members of the National 
Guard and Reserve and employers about the rights afforded to Service 
members under USERRA: ESGR's core mission is to facilitate and promote 
a cooperative culture of employer support for National Guard and 
Reserve service by developing and advocating mutually beneficial 
initiatives; recognizing outstanding employer support; increasing 
awareness of applicable laws and policies; resolving potential 
conflicts between employers and their Service members; and acting as 
the employers' principal advocate within DoD. For more than 40 years, 
ESGR has been the Department of Defense lead for Service members and 
their civilian employers with respect to USERRA education. In FY 12, 
ESGR executed its core mission by leveraging a network of more than 
4,900 volunteers nationwide, achieving significant results across 
multiple areas:

    - Through our Employer Outreach, ESGR volunteers educated 161,440 
employers regarding their rights and responsibilities in accordance 
with USERRA. ESGR also attained 54,889 Statements of Support. Employers 
signing a Statement of Support pledge support for their employees 
serving in the Guard and Reserve, while also focusing on opportunities 
to employ Guardsmen, Reservists, and veterans.

    - Through our Military Outreach efforts, ESGR volunteers educated 
482,916 Service members regarding their rights and responsibilities 
under USERRA. In turn, Service members recognized supportive employers 
with 3,236 nominations for the 2012 Secretary of Defense Employer 
Support Freedom Award and acknowledged 12,073 supervisors with a 
Patriot Award.

    - ESGR's Ombudsman Services are supported by over 650 USERRA 
volunteer experts spread across the country and a National Customer 
Service Center operated from my headquarters at the Mark Center in 
Alexandria. Together, they fielded 21,521 USERRA inquiries and 
facilitated 2,793 USERRA cases. ESGR ombudsmen provided free, neutral 
mediation to resolve 77.6% of all cases, within an average of 8.86 
calendar days.
    For additional detail please see the following table pulled from 
ESGR's FY 12 ``Year In Review'':

                                           Outreach Mission: Employer
----------------------------------------------------------------------------------------------------------------
                        Statements of          Employers       Employers Direct
         FY                Support            Influenced             Mail*
----------------------------------------------------------------------------------------------------------------
          FY 10               58,817             164,218             541,026
----------------------------------------------------------------------------------------------------------------
          FY 11               45,140             153,062              15,138
----------------------------------------------------------------------------------------------------------------
          FY 12               54,889             161,440             220,631
----------------------------------------------------------------------------------------------------------------


                                        Outreach Mission: Service Members
----------------------------------------------------------------------------------------------------------------
                                             Freedom Award      Service Members
         FY             Patriot Awards         Nominees             Briefed        Service Members Direct Mail*
----------------------------------------------------------------------------------------------------------------
           FY10               22,236               2,470             495,774                         880,042
----------------------------------------------------------------------------------------------------------------
           FY11               16,560               4,049             473,891                          89,573
----------------------------------------------------------------------------------------------------------------
           FY12               12,073               3,236             482,916                          62,640
----------------------------------------------------------------------------------------------------------------


                                                Ombudsmen Mission
----------------------------------------------------------------------------------------------------------------
                        USERRA-Related                         Cases Resolved %    Average # of Days to Mediate
         FY               Contacts**        Cases Assigned     Resolved <dagger>            (Resolve)
----------------------------------------------------------------------------------------------------------------
          FY 10               34,612               3,202         2,703/84.4%                           10.27
----------------------------------------------------------------------------------------------------------------
          FY 11               29,727               2,884         2,302/79.8%                            8.77
----------------------------------------------------------------------------------------------------------------
          FY 12               21,521               2,793         2,168/77.6%                            8.86
----------------------------------------------------------------------------------------------------------------


                                                    Resources
----------------------------------------------------------------------------------------------------------------
         FY            Volunteer Hours     Media Impressions
----------------------------------------------------------------------------------------------------------------
          FY 10              245,369              972.3M
----------------------------------------------------------------------------------------------------------------
          FY 11              236,725              976.6M
----------------------------------------------------------------------------------------------------------------
          FY 12              230,083              999.3M
----------------------------------------------------------------------------------------------------------------
* Only targeted mailings in FY 11 and FY 12
** Inquiries generated from phone calls, emails or voicemail request specifically related to USERRA
<dagger> Cases Resolved include all cases brought to resolution and administrative closures
 Days reported as calendar days

    Furthermore, ESGR serves as a member of the USERRA Employment 
Protection Group established by the Presidential Memorandum dated July 
19, 2012, in direct support to the Defense Civilian Personnel Advisory 
Services (DCPAS) for USERRA expertise. The USERRA Employment Protection 
Group is comprised of key Federal agencies such as the Office of 
Personnel Management (OPM), Department of Labor (DOL), Office of 
Special Counsel (OSC), Department of Defense (DoD) and others. The 
Presidential Memorandum calls on agencies across the Federal government 
to intensify their efforts to ensure fair treatment and equal 
opportunity for veterans and Service members in Federal employment; in 
particular, the adherence to USERRA that provides critical protections 
to those who have served our country, including veterans and National 
Guard and Reserve members.
    ESGR directly trained 590 Federal government personnel across 12 
different Federal agencies; increasing their knowledge, awareness and 
compliance with USERRA. ESGR ombudsman volunteers provide assistance to 
National Guard and Reserve members with USERRA conflicts to help 
reduce, resolve and prevent employer and/or employee misunderstandings 
and problems. To ensure robust compliance and timely responses to 
USERRA matters within the Federal government, all Federal USERRA cases 
are handled and managed at Headquarters, ESGR Customer Service Center. 
In FY 12, ESGR mediated 235 Federal government USERRA cases on behalf 
of Service members.
    Latest statistics on the rate of unemployment among Reserve 
Component Service members: The Status of Forces-Reserve survey from 
June 2012 reported an unemployment rate of 11% across the Reserve 
Components, down from 13.1% in the January 2011 survey. At the same 
time, the junior enlisted Reserve Component Service members self-
reported their unemployment rate at 18%, down from 23%. Let me assure 
you that the Office of the Assistant Secretary of Defense for Reserve 
Affairs (OASD RA) views civilian employment as a critical piece of a 
Reserve Component Service member's readiness, and even though the trend 
appears to be headed in the right direction, we still see the high rate 
of unemployment as a threat to the readiness of our force.
    Initiatives taken by the Department of Defense to reduce 
unemployment rates among members of the National Guard and Reserve: To 
address unemployment among members of the National Guard and Reserve, 
it is important to note that this is a unique population, as these 
Service members are not retiring or separating from service. These 
Service members are still serving, and their future employers must help 
facilitate their continued participation in our military. . Our goal is 
to ensure these Service members receive employment assistance 
responsive to their needs.
    Under OASD RA, resources coalesce through the Yellow Ribbon 
Reintegration Program (YRRP) and ESGR to address the unique employment 
needs of Reserve Component Service members. The Employment Initiative 
Program (EIP) is YRRP's umbrella program for addressing Guard and 
Reserve employment issues, which leverages ESGR's nationwide network of 
more than 4,900 volunteers. DoD also teamed with the VA, DOL-VETS and 
the Small Business Administration to make resources and valuable 
training available to Service members. Additionally, ESGR and YRRP 
continue to cultivate a relationship with the White House' Joining 
Forces initiative.
    Since the launch of employment initiatives in January 2011, ESGR 
State Committees across the country have helped Service members and 
their spouses via employment assistance workshops, job fairs, 
employment summits, and many other local community programs, teaching 
resume writing, conducting mock interviews and providing career 
counseling. In working with the U.S. Chamber of Commerce's Hiring Our 
Heroes program, Hero2Hired and ESGR have supported more than 400 hiring 
fairs across the country, engaging more than 143,000 attendees and 
resulting in more than 14,000 veterans, Service members, military 
spouses and wounded warriors gaining employment.
    In December 2011, OASD RA launched ``Hero2Hired'', better known as 
H2H. As the marquee element of EIP, H2H is a comprehensive, multi-
faceted employment assistance program developed for Reserve Component 
Service members. Using lessons learned from its piloted use with 
wounded warriors and the Army Reserve, H2H was created to address the 
gap in employment assistance services and support for Reserve Component 
Service members.
    H2H is a comprehensive employment assistance program with a 
powerful job search capability (www.H2H.jobs) and online community that 
is 100% free for veterans, Service members, and employers. It contains 
all the tools a job seeker needs to find a job: job listings, career 
exploration tools, education and training resources, advice and tips, 
hiring events, virtual career fairs, mobile phone app, and networking 
opportunities. The goal of H2H is to simplify the job search while 
reducing the number of unemployed Reserve Component Service members. 
H2H.jobs also allows military-friendly companies to access the talented 
men and women who are still serving in the military, post job openings, 
search for candidates and invite them to apply to a specific job 
opportunity, and participate in hiring events - all free of charge. In 
late 2012, Reserve Affairs fielded 56 Employment Transition 
Coordinators (ETCs) across the Nation, in conjunction with a full-
spectrum case management system, enabling our career counselors to 
provide tailored and personalized support to each and every Service 
member that seeks career assistance. Since October, ETCs have 
facilitated the job placement of more than 600 Service members through 
the H2H program and provided career assistance to thousands more.
    As all jobs are local, H2H is a local solution and is well 
positioned to successfully assist unemployed Reserve Component Service 
members with job placement, and thereby potentially reducing DoD 
unemployment costs related to demobilizing Reserve Component members. 
H2H also assists underemployed Service members by providing access to 
jobs that match their skill levels and areas of expertise. Using our 
ETCs, career web platform, mobile applications, social media 
integration, career fairs, and a national marketing and management 
effort, H2H is well-positioned as an effective tool to assist our 
Service members with reintegration and transition. H2H also reduces 
stress and financial hardships faced by unemployed Reserve Component 
Service members and their families. Since the program's launch, more 
than 108,600 job seekers registered with H2H.jobs, gaining access to 
over 14,900 employer partners and 3.7 million job postings. In 
conjunction with our strategic partners, H2H assisted in the placement 
of over 100,000 Service members into jobs.
    Clearly, progress has been made in educating employers and Service 
members on USERRA while also seeing positive results via a declining 
unemployment rate among National Guard and Reserve Service members, 
down from 13.1% to 11%. However, it is imperative that ESGR and YRRP 
continue educating employers and Service members on USERRA and maintain 
focus on employment initiatives in order to achieve lasting results. 
This is especially important in light of the limited resources and 
leaner forces forecast for the future. The Nation will continue to rely 
upon a strong National Guard and Reserve forces to execute the national 
defense strategy and provide humanitarian aid at home and abroad.
    In closing, thank you for this opportunity to testify on behalf of 
everyone that comprises the Family and Employer Programs and Policy 
Team and most of all, ESGR's more than 4,900 volunteers located in all 
50 States, Washington, D.C., Guam-CNMI, Puerto Rico and the U.S. Virgin 
Islands. And, thank you for your continued support to our Reserve 
Component Service members. I look forward to your questions.
Executive Summary
    Chairman Flores, Ranking Member Takano, and members of the 
committee, thank you for your invitation to participate in this hearing 
to share what we in Reserve Affairs have been doing in support of 
Reserve Component Service members, their families and their employers. 
My full testimony, submitted for the record, covers three major areas:

    First, the efforts of the Employer Support of the Guard and Reserve 
(ESGR) office and our 4,900 volunteers nationwide to help educate both 
members of the National Guard and Reserve and employers about the 
rights afforded to Service members under the Uniformed Services 
Employment and Reemployment Rights Act (USERRA). In FY 12, ESGR engaged 
with 161,440 employers in various events and activities. ESGR 
volunteers also obtained 54,889 Statements of Support from employers 
across the country. ESGR received 21,521 USERRA inquiries, while 
resolving 77.6% of the 2,793 USERRA cases. Additionally, ESGR educated 
482,916 Service members regarding their rights and responsibilities 
under USERRA. In response to the Presidential Memorandum July 19, 2012, 
calling on all Federal agencies to intensify their efforts in support 
of veterans and USERRA compliance, ESGR specifically trained 590 
Federal government personnel across 12 Federal agencies; increasing 
their knowledge, awareness and compliance with USERRA.
    Second, the latest statistics on the rate of unemployment among 
Reserve Component Service members. The Status of Forces-Reserve survey 
from June 2012 reported an unemployment rate of 11% across the Reserve 
Components, down from 13.1% in the January 2011 survey. At the same 
time, the junior enlisted Reserve Component Service members self-
reported their unemployment rate at 18%, down from 23%.
    Let me assure you that the Office of the Assistant Secretary of 
Defense for Reserve Affairs (OASD RA) views civilian employment as a 
critical piece of a Reserve Component Service member's readiness, and 
see the continuing high rate of unemployment as a threat to the 
readiness of our force. I look forward to sharing with you the ways in 
which we are addressing this problem.
    Finally, my testimony covers the initiatives taken by the 
Department of Defense to reduce unemployment rates among members of the 
National Guard and Reserve. It is important to note that this is a 
unique population, as these Service members are not retiring or 
separating from service. They are still continuing to serve and their 
future employers must help facilitate their continued participation in 
our military. Our goal is to ensure Reserve Component members have 
access to specialized employment assistance responsive to their needs. 
ESGR and Yellow Ribbon Reintegration Program (YRRP) have partnered 
under the umbrella of the Employment Initiative Program (EIP) in 
addressing the employment needs of the Reserve Components.
    In 2011, Congress mandated the addition of employment opportunities 
and assistance for Service members and their families to as part of 
YRRP. In response, OASD RA launched EIP with the assistance of ESGR's 
extensive nationwide volunteer network. In December 2011, EIP unveiled 
Hero2Hired (H2H), a comprehensive career readiness program supported by 
both high-tech and high-touch elements to address the unique needs of 
Reserve Component Service members. Since the program's launch, more 
than 108,600 job seekers registered with H2H.jobs, gaining access to 
over 14,900 employer partners and 3.7 million job postings. In 
conjunction with our strategic partners, H2H and ESGR assisted in the 
placement of over 100,000 Service members into jobs and supported more 
than 400 job fairs nationwide. The National Guard and Reserve 
unemployment is now reported at 11% and the trend is clearly in the 
right direction.
    As evidenced by these data, progress has been made in educating 
employers and service members on USERRA while also achieving positive 
results via a decrease in the unemployment rate of National Guard and 
Reserve Service members. However, it is imperative that ESGR and YRRP 
continue these efforts in order to achieve lasting results.
    In closing, thank you for this opportunity to testify on behalf of 
everyone that comprises the Family and Employer Programs and Policy 
Team and most of all, ESGR's more than 4,900 volunteers located in all 
50 States, Washington, D.C., Guam-CNMI, Puerto Rico and the U.S. Virgin 
Islands, and thank you for your continued support of the Reserve 
Components.

                                 <F-dash>
          Prepared Statement of Major General Terry M. Haston
Opening Remarks
    Chairman Flores, Ranking Member Takano, and distinguished Members 
of the Subcommittee; I am honored to appear before you today on behalf 
of the more than 14,000 men and women serving in the Tennessee Army and 
Air National Guard.
    I would like to begin by expressing my sincere appreciation for the 
outstanding support of this Subcommittee.
    The Tennessee National Guard has deployed more than 27,000 brave 
Soldiers and Airmen both at home and abroad since September 11, 2001. 
Although our deployments have decreased over the past year, we still 
have warriors returning to situations where they are un-employed or 
under employed.
Tennessee National Guard Unemployment Statistics
    For generations the men and women of the Volunteer State have 
answered the call of this nation without hesitation or reservation. 
Most return home after defending this great nation and resume the 
civilian lifestyle they left. They renew their relationships with 
family and friends and re-integrate into their civilian workplace. The 
pressing issue we are talking about today is our concern for the well-
being of our Soldiers and Airmen who may be facing unemployment in the 
civilian sector.
    When I testified in front of this committee in February of 2012, 
Tennessee reported about 20-25 percent of our National Guard strength 
was either unemployed or under employed, with about 3.5 percent of 
those identified as full-time students. One year later, that rate has 
dropped to 15%, with about 4% identified as fulltime students. This 
compares to an 8.7 percent unemployment rate for Tennessee in 2012 to a 
current rate of 7.6% as a whole. We have committed to multiple programs 
and strategies to provide the very best opportunities in helping them 
gain employment.
Tennessee National Guard Initiatives and Transition Assistance
    The Tennessee National Guard understands the value in collaborative 
efforts and knows the benefit of a long term employee. Our support 
programs are focused on providing careers, not merely jobs, and we are 
working diligently to assist these patriots in finding that career. We 
continue to work with the Tennessee Department of Labor and Workforce 
Development, Department of Veteran's Affairs, and our Military 
Department's Employer Support of the Guard and Reserve Program to 
conduct Employment Assistance Workshops about once each month. These 
are 3-day events providing one-on-one career counseling to address 
issues such as writing an effective resume and how to make a positive 
impression during an interview. At the conclusion of each event major 
employers including Nissan, FEDEX, Eastman Chemical, Hospital 
Corporation of America, AT&T and a multitude of small local businesses 
being available to interview prospective employees. Since August of 
2010, 31 workshops have been conducted with 24 hiring events.
    Also, in Tennessee, the Military Department, working in concert 
with the Department of Safety and the 108th General Assembly, has 
changed the regulations to allow Soldiers who are military truck 
drivers to obtain their CDL with only a written test and not having to 
demonstrate their driving skills, shortening their path to civilian 
employment.
JCEP
    In July of 2012, the National Guard Bureau's Job Connection 
Education Program (JCEP) was introduced as a pilot program in Tennessee 
with a goal of 50 veterans hired by the one year mark. To date, only 7 
months later, the program has placed in community businesses 503 
veterans, with another 379 in the pipeline prepared for an opportunity.
Paychecks for Patriots
    Also in October of 2012, the Tennessee National Guard again joined 
with the Tennessee Department of Labor, Tennessee Department of 
Veterans Affairs and Dollar General Corporation to launch ``Paychecks 
for Patriots''. This landmark initiative brought together 90 major 
employers, with immediate employment opportunities, assisting 2,400 
military veterans and spouses seeking employment. By December, more 
than 50 previously unemployed participants found work through this 
ongoing program.
National Guard Joining Community Forces Initiative
    In adopting the National Guard Joining Community Forces Initiative, 
the Tennessee Army National Guard has coupled with community businesses 
and global corporations to create an Inter-Service Family Assistance 
Committee, with 19 federal, state, and local organizations reaching out 
to help veterans and their families. In an uncertain time for our 
nation and our military, the consolidated efforts of these programs is 
the right path to ensure maximum benefits and opportunities for 
employment for our veterans.
    Also a Joining Communities Forces initiative, the National Guard 
Military and Family Readiness Program, our J9, works in concert with 
the Governor's Council on Veterans Affairs, to support the Community 
Partnership Program that assesses employment opportunities for veterans 
through local organizations like Operation Stand Down Nashville, Humana 
Military, Centerstone Behavioral health groups, and educators like 
Lipscomb University.
    Hopefully, through these many efforts the Tennessee National Guard 
is defeating the perceived stigma of hiring veterans that could hinder 
their employment. We are working diligently to present our highly 
skilled service members to employers, offering them a motivated, 
disciplined, drug-free asset with the training and potential for 
leadership within their company.
    These programs, along with the US Department of Labor's Education 
Workshops in support of the VOW Act, our Yellow Ribbon hiring fairs, 
and our outstanding relationship with the Tennessee Department of Labor 
are all positive steps in reducing the number of unemployed Guard 
members in Tennessee. The bottom line is that through the collaborative 
efforts of all these programs, we are seeing positive results. We still 
have a long way to go, and it is imperative that we are able to 
maintain and continue these programs that are making a difference in 
the lives of our Soldiers and Airmen.
Closing Remarks
    I've often heard it said that these National Guard Soldiers and 
Airmen are the best America has to offer. These men and women are 
willing to put their lives on hold, and without hesitation . . . 
without reservation, walk away from family, community, and their 
civilian occupation to defend and protect this great nation. We owe 
them no less than our very best efforts.
    To effectively combat this problem, we had to know the enemy. We 
had to look beyond the reported numbers that may, in fact, demonstrate 
a ``false positive''. In our efforts to understand the magnitude of the 
problem, we constantly strive to determine an accurate number of Guard 
members who are actively seeking employment.
    To take it one step further, we also have to determine if their 
deployment caused them to be unemployed, or were they unemployed before 
deployment. In Tennessee, we continually encourage unit commanders and 
leadership to identify these individuals in order to assist them 
however we can. We must know what the true ``unemployment enemy'' is 
before we can engage it. In Tennessee, we are working diligently to 
identify and successfully engage that enemy.
    Thank you for allowing me to address this subcommittee, and I stand 
ready to answer any questions you may have.

                                 <F-dash>
                 Prepared Statement of Major Ty Shepard
    Early in my tenure as The Adjutant General (TAG) of California I 
became aware of a problem that was reducing the readiness of our force. 
Historically high unemployment and underemployment in our ranks was 
negatively affecting morale, training, accountability, Soldier and 
family resiliency, and good order and discipline. The Work for Warriors 
(WFW) program was developed to solve this readiness problem.
    With a one-time grant from the Speaker of the California Assembly, 
we stood up WFW as a pilot program in July 2012 with the goal to reduce 
unemployment in the California National Guard (CNG) by 25% in one year.
    The WFW team is made up of one Program Manager, two Applicant 
Coordinators, one Information Technology Specialist, and one Business 
Coordinator. In addition, the Department augmented the WFW program with 
an existing State Active Duty position to lead the effort.
    WFW directly places unemployed CNG members into jobs. Private 
sector businesses contact the WFW Business Coordinator with job 
openings. The Applicant Coordinators use the WFW database to identify 
unemployed CNG candidates that meet the specific job requirements. The 
WFW staff then guides the unemployed CNG member all the way through the 
hiring process (resume preparation, interview prep, and employment 
acceptance). The attached enclosure includes the many businesses and 
business partners we are working with to place Guard members into the 
civilian workforce.
    The WFW program is especially effective in reducing the high 
unemployment rates of CNG units returning from deployments overseas. 
We've found that many units returning from deployments have 
unemployment rates well over 50%. This high rate of unemployment had 
remained a problem because federal programs that assist deployed 
reservists do not begin until 180 days after the service member returns 
to California. To close this gap, the WFW staff contacts the units 
while they are still overseas and works with unit leadership to develop 
a plan to immediately reintegrate unemployed Soldiers and Airmen into 
the civilian workforce. Once the unit is back in the United States, the 
WFW staff provides the unit with program information at their federal 
demobilization site, often located in another state, and begins setting 
up job interviews for deployed service members. The results have been 
dramatic. Placing Soldiers and Airmen in jobs immediately upon their 
return from overseas allows for a more successful reintegration and can 
reduce behavioral health problems, substance abuse, and domestic 
violence.
    The success of the program is based on our use of the chain of 
command. Our staff uses the existing CNG chain of command to ensure 
unemployed service members are made aware of the WFW program, and 
encouraged by their first-line leaders to participate. WFW is also 
using social media and web services to get information to service 
members. Leveraging this no-cost method of communication has allowed 
the WFW team to push information quickly to mobile devices and 
computers and place members into jobs as quickly as 24 hours from 
receiving a job opening.
    The WFW program is the most effective direct job placement program 
of its kind in the nation; on average the program places two guardsmen 
every day. The program is remarkably cost effective compared to federal 
standards and represents significant savings to the government when 
factoring in unemployment compensation costs. Successful federal 
veterans' employment initiatives typically have a total cost of over 
$10,000 per veteran placed. The WFW program is averaging a $550 cost 
per placement.
    The following WFW program information incorporates data from the 
program's inception on March 29, 2012 through the 2012 calendar year:

    <bullet>  Number of Service members Directly Asking for Employment 
Support: 2,171
    <bullet>  Number of Resumes Completed: 875
    <bullet>  Number of Resumes Submitted for Interviews: 975
    <bullet>  Number of Service members Placed into Jobs: 965
    <bullet>  Number of Companies Providing Jobs to Fill: 92

    The WFW program has helped hundreds of California's Guard members 
find employment so they can support their families and contribute to 
their communities. This direct placement model is transferable to other 
states that have high unemployment and/or underemployment in their 
National Guard force. It is also directly transferable to the Reserves.
    We will remain committed to this important program until it is no 
longer needed. We are already working with the National Guard Bureau 
and other states to share the program and the best-business-practices 
we have developed. I look forward to working with the Committee to be 
part of the solution in getting our Soldiers, Airmen, and Veterans back 
to work.

                                 <F-dash>
            Prepared Statement of Theodore (Ted) L. Daywalt
Introduction
    Good morning, Chairman, members and staff of the Subcommittee on 
Economic Opportunity of the House Committee on Veterans Affairs (HVAC).
    I am very pleased the HVAC is again addressing the issue of 
National Guard and Reserve (NG&R) unemployment.
    VetJobs (www.vetjobs.com) has a unique vantage point on these 
discussions as by the nature of our business over the last fourteen 
years, VetJobs deals with members of the NG&R and their family members 
on a daily basis who are pursuing employment. In fact, VetJobs assists 
all veterans, including Officer and Enlisted, Active Duty, 
Transitioning Military, National Guard and Reservists, Veterans and 
Retirees, of the Air Force, Army, Coast Guard, Marine Corps, Merchant 
Marine, National Guard, Navy, NOAA and Public Health Service, DOD 
civilians and their family members. VetJobs has been fortunate in being 
successful in assisting them in finding employment for fourteen years. 
Currently VetJobs' traffic is averaging well over 20,000 visitors a 
day!
    My observations are as a former drilling Navy Reservist and as a 
businessman managing the leading military related internet employment 
site that interacts with municipal, state and federal agencies, 
corporations, nonprofit organizations, and businesses seeking to hire 
transitioning military, veterans, National Guard, Reservists and their 
family members.
    I want to emphasize that I am very supportive of an operational 
NG&R. In the later years of my time as a drilling Navy Reservist in the 
Naval Reserve Intelligence Program we stressed making our Reserve 
Intelligence units operational, which proved very beneficial during the 
first Gulf War and subsequent engagements. Having an operational NG&R 
makes the United States stronger on the national stage, particularly in 
lieu of how the active duty forces are being dangerously reduced. But 
the use of the NG&R needs to be done in such a way as to still let the 
component member maintain a continuum of civilian employment since 
being in the NG&R does not provide a full time income source on which 
to support themselves and their families.
    In order to solve a problem one must effectively analyze, define 
and identify the problem and its causes. If one does not understand the 
sources of the problem, well-meaning solutions that are attempted will 
not work, or worse, will not address the problem at all and/or create 
worse problems.
    It is interesting to note the unemployment rate for ALL veterans as 
reported by the Bureau of Labor Statistics has always been lower than 
the nonveterans and lower than the national unemployment. See http://
vetjobs.com/media/2012/08/29/veteran-unemployment-rate-lower-than-
nonveteran
    The Current Population Survey (CPS) overall veteran unemployment 
rate for all veterans in February fell to 6.9% from 7.8% in January, a 
decrease of .9%. This is significantly less than the national 
unemployment rate. There were 772,000 unemployed veterans in February, 
down 72,000 from the 844,000 unemployed veterans in January, a large 
part of those unemployed are in the NG&R.
    Working on a solution to the NG&R unemployment problem is 
important. I am convinced that there are those at DOD and the National 
Guard Bureau (NGB) who are very much aware of the problem, but for 
various bureaucratic and political reasons have been trying to pretend 
the issue does not exist and have been kicking the can down the road 
for someone else to deal with in the future. That might be good for a 
bureaucrat's career or movement for a military person to a next star, 
but for the members of the NG&R who have families to support, they 
should be given better treatment. The component members are being made 
to suffer from bureaucratic policies, and that is not a fair thing to 
do to the very people who have been fighting, dying and being wounded 
for our country and freedoms.
    The rise in the young veteran unemployment rate which constitutes a 
large portion of the NG&R is a direct result of the DOD call up policy 
for the NG&R implemented on January 11, 2007. From previous testimony, 
it has been proven that the call up policy caused employers to not want 
to hire members of the NG&R which has led to the high unemployment rate 
particularly in young veterans.
    The call up policy implemented in 2007 was flawed and continues to 
be flawed. What planners at DOD do not seem to understand is employers 
cannot run their companies with their most important asset, their human 
capital, being taken away for 12 to 24 months at a time. As 
demonstrated by previous testimony and data from the Society of Human 
Resource Management (SHRM), the result has been that upwards of 65% of 
employers will not now hire as a new employee an active member of the 
NG&R, and in fact look for ways to remove active members of the NG&R 
from their companies.
    What the policy has done is created a class of veterans who fight 
for our country, defending our freedoms and free market economy then 
when they return to the country, the policies of DOD make it impossible 
for them to get a civilian job. They have been made third class 
citizens! This is terribly wrong.
    From a business point of view, one must understand that companies 
have a fiduciary responsibility to their shareholders to run an 
efficient and profitable operation, but they cannot do so if they 
cannot count on the availability of their employees. While for a 
business person this is common sense, those at DOD making the decisions 
on how to utilize the NG&R seem to have missed what corporate America 
is saying about extended call-ups. They will not support having their 
employees gone for long periods of time.
    The result is the exceptionally high unemployment rate of young 
veterans. The unemployment rate of 18 to 24 year old veterans peaked in 
November, 2011, when it reached 37.9% unemployment, comprising 95,000. 
DOD did not release that many 18 to 24 year old active military 
personnel. The only way to reach a number like 95,000 is by 
understanding the bulk of those veterans were in the NG&R.
    At VetJobs we find that if a veteran has totally separated from the 
military, retired, or is a wounded warrior, they are for the most part 
finding employment. This is not to say some are not having difficulties 
in this rough economy, which is the worst since the Great Depression. 
One can always find an exception. But if a veteran remains active in 
the NG&R, VetJobs observes they are having a much more difficult time 
finding meaningful employment due to the constant call ups, deployment 
schedules and the resistance by civilian employers to hiring active 
members of the NG&R.
    VetJobs notes that members of the NG&R have had to compete against 
veterans who have be downsized from the active duty forces with the 
recent drawdown of nearly 140,000 active duty personnel. As an 
employer, if you are given the choice between a veteran that is totally 
separated from the military versus a veteran that is active with the 
NG&R and may get recalled, you will not logically hire the NG&R 
component member.
    VetJobs was the first organization five years ago to report on the 
now well-documented phenomenon of NG&R members losing their jobs after 
DOD announces the call up of a brigade or reserve unit to active duty. 
One must remember that employer support for the NG&R is necessary to 
make the system work.
    It is interesting to note that as a general rule, no component 
member loses their job in the 60 days prior to mobilization day. That 
is because employers have figured out that if they lay off a member of 
the NG&R under the guise of the recession before the component member 
has orders in hand, the employer is not subject to the Uniformed 
Services Employment and Reemployment Rights Act (USERRA).
    It should be noted that there have been press reports of federal 
government agencies being leading violators of USERRA. In fact, two of 
the worst USERRA violators over the last ten years have been the 
civilian side of DOD and the US Department of Labor. In the CBS 60 
Minutes program regarding USERAA aired on November 2, 2008, Leslie 
Stahl confronted then Deputy Undersecretary Tom Hall regarding the fact 
that DOD, an agency who is responsible for mediating and enforcing 
USERRA, is one of the worst violators of USERRA. Hall's only response 
to questions was ``We have things we need to work on.'' To view the 
program, visit http://www.cbsnews.com/stories/2008/10/30/60minutes/
main4558315--page3.shtml. It is sad that two of the worst violators of 
USERRA are the very federal agencies responsible for enforcing the 
USERRA law. That is akin to a police department leading the numbers in 
rapes, murders and bank robberies.
    Anecdotal information indicates that the National Guard is singled 
out more than their Federal Reserve counterparts. A big part of the 
reason for the National Guard being singled out by employers is they 
are activated not only for the wars and overseas deployments, but also 
for state emergencies, causing them to be called away from their 
civilian employment much more than their Federal Reserve counterparts.
    For example, when the Georgia National Guard returned in August 
2010 from their fifth call up since 9/11, that fall there were heavy 
rains in Georgia and extensive flooding took place in Macon and 
Columbus, Georgia, in September and October. The Governor of Georgia 
activated two Georgia National Guard companies to assist with the 
flooding. Unfortunately, many of those called up had recently come back 
from Afghanistan. The result was some were terminated in their civilian 
jobs or had their civilian employment threatened. Many USERRA 
complaints ensued.
    Moves by employers to not hire members of the NG&R are defensive 
actions by employers who cannot run their business when their employees 
are taken away for 12 to 24 months. It is a good business move.
    VetJobs has noted a new defensive move by employers is to approach 
employees who are at the 20 year mark in their NG or Reserve career and 
offer the employee a large bonus to quit the NG or Reserve and not stay 
for 30 or more years. Again this is a good defensive move by employers 
against the way that DOD has been using the NG&R.
    Like it or not, the component members of the NG&R actually belong 
to the civilian employers who are loaning the NG or Reserve member to 
DOD, not the other way around. The high pace of activity over the last 
twelve years has put a tremendous strain on the NG&R system and the 
relations of those military participants with their civilian employers. 
This has placed a significant number of NG&R members in the tenuous 
position of trying to serve two masters at the same time.
    I want to reinforce that I have found corporate America to be very 
supportive of the military. Corporate America understands the 
importance of having a strong military to protect our freedoms and our 
free market economy. Without a strong military, our freedoms and free 
market economy would be at risk. However, employers cannot go broke 
supporting the NG&R which is what USERRA does due to the onerous legal 
and fiscal requirements levied by USERRA on employers.
    Due to not being able to find a job many members of the NG&R have 
volunteered for additional deployments. They volunteer because they 
have financial obligations and/or families they need to support. With 
these pressing obligations, if the only way to earn money is to go back 
to war or another deployment, then they volunteer to go back
    The inability of many NG&R component members to find work may 
explain why there has been an exponential increase in veterans applying 
for unemployment benefits since 2008. This again correlates to the 
implementation of the current call up policy which went into effect in 
2007.
    Unlike active duty component military members, when NG&R return 
from war or a deployment, they are demobilized and thus do not have a 
ready source of income unless they can find or have a civilian job. 
Given the bias against hiring NG&R members due to the call up policy 
and high operation tempo, NG&R members have problems maintaining a 
continuum of service with a civilian employer. This leads to financial 
difficulties and a host of family and personal problems for the NG&R 
participant.
    Complicating the issue, when NG&R members demobilize they do not 
have the ready access to DOD resources like active duty members to deal 
with employment search, mental illness issues, physical healthcare and 
family counseling. I have regularly heard from members of the NG&R who 
were turned away from ACAP offices because they were in the National 
Guard. This is wrong.
    So the bottom line is no, we are not making progress in lowering 
the unemployment rate of the National Guard and Reserve!
RECOMMENDATIONS
    Having studied this issue for over a decade, I have found there is 
no silver bullet that will solve the NG&R unemployment problem. The 
problem is too large both in the number of people affected and in terms 
of the geographic dispersal of participants. The NG&R unemployment 
issue is both a local and a national problem. Various levels of 
response will be required to help solve this problem.
    As discussed above, the root cause of the NG&R unemployment is the 
current call up policy. Until the policy is changed, any effort at 
remediation will be bandages at best, not a solution. The decision to 
change the call up policy is a Secretary of Defense or a Presidential 
responsibility. The alternative to such a move would be for the 
Congress to legislate a change.
    While there is no silver bullet, a combination of policy changes 
and utilizing existing public sector resources will go a long way 
towards assisting those members of the NG&R who need employment 
assistance, but again such moves are bandages, not a permanent solution 
to the problem.
    I recognize that some of solutions are not politically possible or 
financially feasible given the current political and economic climate, 
but all possible solutions need to be considered. Three obvious 
solutions, 1) bringing back a draft, 2) expanding the active duty 
forces by 500,000 and 3) reducing the use of the NG&R are not 
considered in my recommendations as politically they would be non-
starters.
    My purpose here is to raise awareness of what could help alleviate 
the unemployment of members of the NG&R until something can be done 
about the policy.
    When looking at potential assistance, private sector solutions 
would be preferable to public sector solutions. The private sector is 
always more efficient and it helps if the people assisting military 
veterans find work have worked in the private sector themselves vice 
just having worked in a government bureaucracy. To this end, what 
follows are suggestions are submitted for the Committee's 
consideration.

    1. Make it easier for NG&R members to purchase franchises through 
providing low interest or no interest funding

    2. Certifications and licenses for military experience

    3. Much like England, compensate employers when an NG&R member is 
activated so the employer can hire a contractor until the component 
member returns.

    4. Employ NG&R in federal agencies like the administration promised 
would happen back in 2009.

    5. Provide meaningful employment mentoring

    6. Encourage state level programs

    7. Provide real tax breaks to employers that are not encumbered by 
DOL

    8. Provide meaningful and effective transition assistance programs 
to the NG&R

    9. Re-implement a Current Employment Index (CEI) for the NG&R to be 
tracked by DOD and/or NGB. The National Guard CEI published by NGB was 
halted last fall for political reasons. If we are to fix the problem, 
we need to know the extent of the problem. Not reporting or pretending 
the problem does not exist does not contribute towards a solution.
CONCLUSION
    The bottom line to be derived from the above information concerning 
NG&R unemployment is overall employers want to hire veterans. In my 14 
years of working with employers wanting to hire veterans I have found 
the American business community to be extremely pro-military.
    Business people understand that without a strong military, their 
businesses could not exist as a foreign power would want to take the 
business and the assets. The United States had to learn this the hard 
way in the 1930's when we disarmed post World War I. Those who will not 
learn from history or will not protect what they have are subject to 
losing what they have. As the Latin phrase ``si vis pacum, parabellum'' 
so aptly put it: ``To have peace, prepare for war!''
    I for one am in favor of an operational NG&R especially in light of 
the way our active duty forces are being gutted. Having the NG&R forces 
be operational versus strategic strengthens the United States on the 
national stage.
    But a more balanced way to utilize the NG&R needs to be found so 
that the component members can keep a continuum of employment.
    This concludes my presentation. Thank you for your time.

                                 <F-dash>
                   Prepared Statement of John Barnes
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to be here today to discuss the partnership between the 
National Guard and Panther Racing, and our collaborative effort to 
address veteran unemployment. I am John Barnes, managing partner and 
CEO of Panther Racing, a championship-winning race team in the IndyCar 
Series.
    We are more than an IndyCar Series team with 28 race victories and 
three championship titles. As someone who has been in racing for over 
40 years, I can confirm that for a majority of my career each race 
season was measured by results on the track; however, since Panther 
partnered with the National Guard in 2008, that has changed. Today, 
because of our partnership with the National Guard, we are a military 
service and marketing company that uses our participation in open-wheel 
racing as a vehicle to expand and execute all of the Guard's recruiting 
and retention efforts.
    Because of the interaction between our team and all of the soldiers 
and airmen that attend our events, it has focused our entire 
organization on making sure we use all of our assets for the betterment 
of those who serve. Each day the Panther team wakes up with one goal: 
help the National Guard achieve its mission. What we achieve on these 
initiatives on a daily basis is how we measure success at Panther 
Racing.
    In the next five years, a tsunami is coming as many leave the 
active duty ranks and return to civilian society. Joblessness is set to 
worsen as the war in Afghanistan winds down and more than 1.5 million 
service members are projected to leave the military by 2016. The Guard 
will be asked to do more. If these men and women are not employed, they 
will leave the Guard and it will be come more difficult to recruit.
    We must continue to allow use of non-traditional high-power methods 
like the Panther/National Guard relationship to gain access to business 
leaders to succeed in this effort to bring new employers into the fold. 
In addition, we need to continuously educate and emphasize business 
leaders on the overall value of the National Guard, it's unique 
mission, and how critical employers and Guard employment are for both 
recruiting and retention. The Guard will be relied upon even more in 
the coming years.
    When an employer is not supportive of our Soldiers, then all too 
often our troops have to choose between their civilian job and military 
service, and all too often they chose their full-time job. When this 
happens we all lose. Military readiness suffers as well. Our nation 
loses military experience and our investment in soldiers. Our taxpayers 
lose, as more of their money has to be spent to recruit and train 
replacements.
Mission Points: Fighting Veteran Unemployment
    Early in our relationship with the National Guard, we learned of 
the unemployment challenges facing Veterans, and to a greater extent, 
the Guard. While knowing that we were in no way an expert in this 
field, we thought our sports marketing platform could play an integral 
role in the development of a national effort to address Veteran 
unemployment. With support from Guard leadership, we agreed as a team 
that fighting this unemployment crisis would become, in addition to 
recruiting and retention, an added pillar to our mission.
    In 2009, LTG Clyde Vaughn and his staff asked me if we could 
include up to six ESGR members and employers to our race events. After 
learning more about the mission of that organization and the important 
role they were going to need to fill, I was very eager to assist. ESGR 
has gone from an organization supporting USERRA to being a fulltime 
employment organization connecting returning Guardsmen with employers 
with their highly successful Heroes 2 Hire program. Shortly after 
listening to the state ESGR staff and recognizing the importance of 
engaging directly with prospective employers, we invited employers to 
race sites and began educating them on the unemployment challenges the 
Guard and their spouses face. The goal was to inspire and motivate 
these employers to hire more military personnel transferring to the 
private sector.
    In the first year of this partnership our goals were very modest: 
ESGR was to invite 4-6 potential employers to race events The following 
year our program expanded and the goal was increased to 25 business 
leaders of greater quality from the local community. By the third year, 
we hosted over 50 employers and ESGR staff.
    We evaluated our efforts with ESGR at the end of our 2011 season. 
It had success and we had learned a lot about how to make these 
important connections and raise awareness about this issue. Yet, we 
sought to have an even greater impact on the crisis of unemployment 
among our Guard. We asked our partners and National Guard leaders: How 
can we be of further assistance?
Panther Launches ``Operation: Hire Our Guard''
    Late in 2011, with the vision of Dave McIntyre of TriWest 
Healthcare and a collaboration with multiple entities including the 
National Guard, Panther launched ``Operation: Hire Our Guard''. We 
greatly expanded our efforts and our partner involvement to include 
leaders such as the U.S. Chamber of Commerce (Hiring Our Heroes 
initiative), the White House (Joining Forces program) and ESGR to raise 
awareness of the National Guard overall and to emphasize the need for 
employers to hire veterans. We tried to become a ``Pied Piper'' of 
sorts taking the most effective parts of many existing programs and 
combining them with the shock and awe that our industry brought forth 
to make a perfect storm where high-level employers are set shoulder to 
shoulder with National Guardsmen.
    There are many facets to Operation: Hire Our Guard, all of which 
are focused on combating Veteran unemployment, but the initiative also 
meets our original goals of raising awareness about the National Guard 
and assisting in recruiting and retaining its force. We also utilized 
this effort to expand our nationwide reach, and through Operation: Hire 
Our Guard our team has been successful in reaching many states that do 
not host an IndyCar event.
    The issue goes much deeper than unemployment, as we've learned how 
the lack of a job can adversely affect these soldiers in many other 
ways. I learned the cruel effects from unemployment on mental health 
and suicide from Dave McIntyre, General Chiarelli and Medal of Honor 
recipient Drew Dix and others. All have played a leading role in 
combatting suicide and are champions of our jobs effort.
    We engage the potential employer during our education program 
regarding PTS. We have learned from experts that an estimated 20% of 
returning soldiers are affected. Typically, if a Human Resource office 
has a choice between two candidates for employment (a soldier affected 
by PTS and a unaffected civilian) they normally chose the candidate 
with less risk versus more reward. We help employers better understand 
and address the effects of PTS in a very straightforward manner during 
our program.
    There are other issues employers consider when deciding not to hire 
a Guardsman, such as deployment disrupting his/her employment. Our 
mission is to address how the Guardsman needs an employment 
opportunity, and how the company can gain a valuable team member with 
remarkable skills and leadership ability. Educating employers about the 
National Guard and the skill set the soldiers could potentially provide 
to their workforce is critical. At all of our Operation: Hire Our Guard 
events we deploy all our assets to entice participation and make it a 
memorable event for the employers and the attending Veterans. My job is 
to follow up with these business leaders, which we do within the two 
weeks after the event. We provide excitement from the IndyCar 
experiences and use the access this effort affords me to stay connected 
and ensures these business leaders are working to employ Guardsmen.

    Panther Racing's initiative is centered on three pillars:
    <bullet>  Employment Programs at IndyCar events:
          o Panther Racing collaborates with the U.S. Chamber, the ESGR 
and each respective state's National Guard Leadership and Employment 
Outreach coordinator to bring local business leaders to each race to 
have them experience the Operation: Hire Our Guard program. The goal is 
raising awareness of the unemployment crisis, highlighting the benefits 
of hiring Veterans, making the necessary connections between local 
business and military leadership and getting businesses engaged in 
hiring fairs in their state to help Veterans and military spouses find 
meaningful employment. Panther Racing provides access to IndyCar 
activities throughout race weekend, and the race-day program sometimes 
includes up to 150 National Guard soldiers, potential speakers from the 
National Guard, U.S. Chamber, the White House, local employers, senior 
military officers and - whenever possible - Medal of Honor recipients. 
This schedule has been very successful as it allows interested 
employers to directly interface with the States Employer Outreach 
officers while there.
    <bullet>  Employer Outreach Programs in States without an IndyCar 
event:
          o In an effort to extend beyond states that host IndyCar 
events, and to reach areas of the country where the unemployment crisis 
is severe, Panther took its employment program on the road. Following a 
similar structure as the at-track programs, Panther hosts a single-day 
event so business leaders can attend and be home the same night. The 
event includes a behind-the-scenes look at military training and a ride 
in our IndyCar two-seater. Once that is complete attendees experience 
the same program highlighting the message regarding the unemployment 
crisis and how employers in attendance can address the problem. This is 
all done to complement the ESGR program.
    <bullet>  Motivating Employers Toward Hiring Fairs and Hero-2-
Hired:
          o Our call to action for employers is simple: Engage in a 
U.S. Chamber hiring fair and the Hero-2-Hired program. These two 
programs are amongst the most effective in combating the unemployment 
crisis. Some of the best hiring fairs have been organized by the U.S. 
Chamber of Commerce's Hiring Our Heroes but we encourage them to 
support agencies with which you are familiar, such as the Veterans 
Administration, American Legion and a host of others working to find 
veterans good-paying jobs in their local communities. Over 400 such job 
fairs were executed from March 2011 through March 2013 and, to date, 
more than 15,000 Veterans have been hired. Employers must prove they 
have actual positions available to be filled prior to participating. 
Attendance is free to all veterans and their families and they can 
apply, interview, and accept a position at the hiring fair. For 
veterans unable to attend, a recruiter can provide resumes to employers 
on-site or online. We also fully support the programs that Heroes 2 
Hired provides. They have great on-line programs where Veterans can 
find employment. Another great program that they provide is the State 
Transition Coordinator, and the results of this program are quickly 
proving it to be one of the most effective in existence.
Mission Points: Hometown Hero Program
    One of the programs that we are very proud to have started is our 
Hometown Hero program, where each state's National Guard selects a 
notable warrior to be honored. This soldier is recognized throughout 
the weekend and sits next to our driver during the IndyCar autograph 
session. They sign their own ``Hero Card'' with thousands of fans 
standing in line to personally meet one of our Nation's heroes. In 
2013, the program will be expanded to include a neighboring state of 
the race location. Thus far, we have presented Hometown Hero awards to 
78 recipients since 2008, including SGT Donnie Hunter of California, 
SPC Christina Gonzales of Nevada, SSG Eloy Aguirre of Texas, SSG Eugene 
Patton of Colorado and both Staff Sergeant Jennifer M. Bartkus and 
Sergeant Justin Giesendaffer of Arizona.
    We honor our Hometown Hero before each race during our Operation: 
Hire Our Guard employment program. An award is presented to the 
Guardsman by a high ranking National Guard Officer and - when they're 
available to attend an IndyCar event - a Medal of Honor Recipient. Then 
they are the first introduced on the Pre-Race stage in front of all of 
the fans while their service record is read. During the five years 
we've had the Hometown Hero program it has become one of the hallmarks 
of race weekend and has been developed into a retention tool by the 
National Guard.
Employer Outreach Summary
    Panther's initial missions with the National Guard was to help 
recruit and retain its force and provide access for hundreds of 
soldiers at each event. But high unemployment has increased the 
challenge for all of us, and Panther Racing has a responsibility to 
help and a platform and place to make a difference.
    We ask our military to do more every day--often with fewer 
resources than the previous year. When Panther's budget from DOD was 
cut last year by millions - like most DOD programs - we did not cut our 
employment program. Instead, we expanded our program and pledged to do 
more. Our team raised more than $1.1 million from private sources like 
TriWest and Lincoln Education to assist Operation: Hire Our Guard and 
to ensure, despite cutbacks, we were still doing everything in our 
power to be a positive partner for the National Guard.
    Last year our events provided Veterans exposure to approximately 
9,300 job opportunities and based on a conservative approach, 
potentially over 4,300 Guardsmen have been employed as a result of our 
program. While our employment program is a small dent in the 65,000 
estimated unemployed Guardsmen, our efforts will increase in 2013 as 
our partnerships and programs grow.
Recommendations to combat unemployment:
    1. Educate ``centers of influence'' on the overall value of the 
National Guard.

    2. Utilize unique forums to get employers out of the office to hear 
the unemployment message.

    3. Continue to use non-traditional high-power methods like the 
Panther/National Guard employment effort to gain access to business 
leaders. We attract business leaders to our events because of the sport 
and use Hollywood style media presentations to educate and excite them 
to become involved in the Guard community and engage in hiring.

    4. Panther has used sports to promote Guard employment and it 
works--now, encourage others to do it. Every major sporting event in 
our country such as the Super Bowl, the World Series, the Masters etc. 
should have something similar to Panther's ``Operation: Hire Our 
Guard.'' By combining the star power of pinnacle sporting events with 
the emotional impact of ``Hometown Heroes'' stories and the respect 
employers have for military leaders, these can be unique, effective 
forums for finding jobs.

    5. Engage and educate potential employers, and especially Human 
Resources professionals, about PTS. Greater awareness, education, and 
training tailored to debunking myths about PTS are needed with 
leadership from the Departments of Defense, Labor and Veterans Affairs.

    6. Promote the utilization of the Dollar General ``model'' which 
partners with local ESGRs Transition Assistance Coordinators and others 
to help soldiers and airmen in advance of a hiring fair prepare (resume 
writing, presentation, dress, verbal communicate, and follow-up efforts 
etc.). We have learned that ``cold call'' job fairs are not as 
effective as those with training in advance for employers and troops.

    7. Educate business leaders about the need to have some form of 
``translation'' or ``job skills conversion'' and utilize such an 
application on their employment web pages. H2H has an outstanding MOS 
converter and should be utilized widely.
Overview of Our Relationship with National Guard--A Marketing Platform
    Our relationship with the National Guard began with the primary 
mission of assisting in recruiting, retention, marketing and branding. 
What is unique for Panther is that our primary partner does not exist 
due to a product or a service, but something much more valuable: Its 
ability to ensure the safety and security of our Nation, States and all 
of its communities through the efforts of Citizen Soldiers.
    To effectively market, the Guard needs targeted, but flexible, 
methods. We want our next generation of warriors to be intelligent, 
competitive and athletic. The National Guard and other entities have 
found sports marketing to be one of the leading tools available to 
connect with this target audience.
    Today's young men and women live so much differently than when we 
were young. Each day they are confronted with thousands and thousands 
of different social mediums competing for their attention. The same is 
true with their ``influencers'' such as parents, grandparents, 
teachers, and coaches. The day of relying upon traditional methods such 
as dominant mediums in recruiting and retention are long gone. The 
Marines, for example, say they must make over 10,000 touches to attain 
67 accessions.
    As you know, the National Guard is unique in many ways, including 
its mission. As a good friend of mine frequently says about the Guard, 
''It's the Greatest Story Never Told.'' Because of legal prohibitions, 
it is prohibited from traditional advertising on over-the-air broadcast 
television, so the efforts to attract and retain the true ``citizen 
solider'' all the more challenging. However, Panther is allowed to 
advertise and it helps the Guard get its message to the targeted 
audience.
Mission Points: Marketing
    To fully understand the National Guard, our team immersed itself 
into all aspects of the National Guard's unique dual mission and their 
essential relationship with our Nation and their community. Once we had 
an understanding of its mission and goals, Panther was able to develop 
targeted marking and branding efforts to help the Guard focus on its 
specific market from which to recruit its future warriors. Our industry 
is measured in milliseconds and always has to squeeze the last penny 
out of every dollar, so Panther prides itself in delivering the maximum 
impact from every asset.
    Since 2009 we have had over 14.5 billion calculated impressions 
upon viewers with a media value of over $142.1 million. These 
impressions were made through a diverse group of outlets, including: 
traditional television and radio commercials via race-day broadcasts; a 
``FanZone'' activation area where over 225,000 fans attend annually; 
track jumbotron announcements; race program ads; print and radio 
appearances; social media platforms such as Facebook, Twitter and 
YouTube with produced video pieces; at-track signage; and a 
specifically logoed National Guard IndyCar 2-seater.
    We provide tickets, credentials, food and recognition to thousands 
of National Guard soldiers and their families each year--a great 
retention tool. The FanZone is a great opportunity to recruit and 
network at each race event. Every visitor leaves behind his or her 
contact info plus completes a questionnaire regarding interest in the 
Guard for follow up. Our Infield Training Unit (ITU) is used by the 
state to educate our soldiers regarding employment and other pertinent 
issues relative to life in the Guard.
    After being introduced to the National Guard Youth ChalleNGe 
program in 2008, Panther has helped raise over $850,000 in scholarships 
for the graduating Cadets. Our team hosts select Youth ChalleNGe Cadets 
at each IndyCar race event where there is a ChalleNGe program in the 
state, congratulating them on their life-changing accomplishments and 
educate them on career opportunities in motorsports.
    We also work to lift up those who have sacrificed so much. I will 
never forget my experience after arriving at the Brooke Army Hospital 
in 2008; I met a wounded warrior who was wearing a black and yellow 
smiley tee shirt with the words ``Got Burns''. When I'm having a bad 
day, I think of that soldier. He never complained about his injury. But 
he did in a silent way display to all that saw him that day a huge 
statement: ``Life goes on. Don't complain. Finish the mission. Move 
on.'' I think of that day a lot. Panther continues to take the No. 4 
racecar and the team's drivers to visit wounded and injured service 
members at the VA Polytrauma Centers in Tampa, Florida; Richmond, 
Virginia; Palo Alto, California; and as I mentioned, the burn unit at 
Brooke Army Medical Center, San Antonio, Texas.
    The privilege of visiting these facilities, meeting our Nation's 
heroes (and their families) and seeing their courage and determination 
is unlike anything I have experienced in my lifetime. I don't say this 
to bring recognition to our organization, or myself, but instead to 
encourage others to do the same. The long rehabilitation that faces 
these brave men and women is very lonely. They need our support. They 
need to be assured that they will not be forgotten. I also guarantee 
you it will change your lives forever.
Mission Points: Synergies
    Our partnership with the Guard has turned out to be so much more 
than marketing, recruiting and retention. While visiting with our 
Hometown Hero of Kentucky in 2008, I learned of the serious injuries 
impacting our soldiers while they performed their duties, including the 
prevalence of Traumatic Brain Injury (TBI).
    I asked how a specific soldier was hurt and learned he had been a 
Buffalo driver responsible for finding IED's in front of a convoy. 
After being virtually blown up several times, he was finally taken off 
his job. I ask him what the G-force impact was from these blasts and 
was very surprised to find out that the impact was not recorded in any 
way.
    As a result, I took the Adjutant General of the Kentucky National 
Guard to the IndyCar series research trailer at the track, where he was 
shown the devices that we had used since 1997 to accurately measure the 
impact to our drivers. Like the military, we often deal with serious 
head injuries in racing. We utilize a state-of-the-art ear-sensor 
technology to measure the G-force impact to a driver's head in the 
event of an accident. These sensors record specific detail on the 
impact to the driver, which has been instrumental in on-site treatment, 
in long-term care and the development of better equipment to protect 
our athletes. The General was very surprised to find that IndyCar had 
successfully been measuring this for such a long time. I learned about 
the millions of dollars that had been invested, unsuccessfully, to 
develop sensor technology to help protect our troops. After that event, 
every time we raced and an Adjutant General attended, we showed them 
this technology and other devices that had been designed by our sport.
    After hearing about this, our partner Dave McIntyre of TriWest 
Healthcare spoke to the Vice Chief of the Army, General Peter 
Chiarelli, about our concussion recording devices. Two days later we 
were asked to the Pentagon to show him what had been used in our 
industry. After reviewing it and commenting on the simplicity of the 
devices, General Chiarelli asked if I were there to sell him this 
technology. I made it very clear that Panther would donate any asset 
that could help our troops at no cost. Under his direction, we made 
various visits to Army medical facilities around the country to provide 
experts from our field to discuss the benefits of the collection of 
this data.
    Eventually, a form of the technology that was given to the Army was 
modified, with the help of the Georgia Tech Research Institute and the 
Army's Rapid Equipping Force (REF), and is now repurposed as the 
Integrated Blast Effects Sensor Suite (I-BESS). The Army deployed 4,000 
of these new body-worn sensors in Afghanistan to measure and help 
understand how intense impacts such as explosions and vehicle accidents 
affect the human body. Each unit contains four sensors that communicate 
with one another along with an armored vehicle based system that has 
additional sensors for more data acquisition.
    The data collected goes to the Joint Trauma Analysis and Prevention 
of Injury in Combat Program--where medical professionals and engineers 
will have access to the database to help better protect our soldiers. 
Most importantly, the I-BESS system detects TBI in soldiers who have 
experienced an adverse event and helps our neurosurgeons treat the 
patient.
    We are humbled to have played a small role in helping our combat 
troops with TBI. Just to be a small part of the public/private 
partnership here will always keep us engaged in any way possible to 
help our National Guard soldiers.
    Panther has continued to work on additional synergies and is 
currently discussing designs of the seats used in our IndyCar, which 
could potentially help helicopter pilots who have high rates of spinal 
injuries due to landings. This seat technology has helped reduce spinal 
injuries by over 80% in our industry.
Conclusion
    Mr. Chairman, it has been an honor to be here today. I respect the 
trust that has been placed in each member of this subcommittee to care 
for our Nation's most sacred population. My goal was to share some of 
the successes that that our team has deployed to address unemployment 
in the National Guard.
    We feel a special calling to help ensure those who have served in 
uniform have the opportunity to provide for themselves and their 
families. We know we bring significant assets to the effort, and we 
want to use them most efficiently.
    When a business leader has a ``bucket list'' day while experiencing 
the Panther program, we know they're leaving with a greater 
understanding of the Guard. It's those business leaders who will be a 
supportive employer, and will advocate policies and practices that 
support our Veterans. A Guardsman with a good job, at a company that 
respects and supports his/her service, is a National Guardsman we 
retain for a long time.
    Our success has always been measured by victories on the track. But 
that was when we were just a racing team. Today, we are a military 
service and marketing company working to help the National Guard meet 
its goals for recruiting, retention, branding and now employment.
    I would trade any race win in exchange for one more job for a 
member of the Guard. Ensuring the Guard's success is our mission and 
Operation: Hire Our Guard is a huge part of that effort. I spend every 
day thinking how our team can do better. The attributes these men and 
women bring to employers - intelligence, leadership, selflessness and 
dedication - can lift any company in the same way they have always 
lifted our Nation.
    What troubles me most is that I cannot see a day in my future when 
there will be a ticker-tape parade to celebrate what all of the 
Veterans of Iraq and Afghanistan have done for our Nation. What I hope 
I will see is the day when all these great Veterans have meaningful 
employment. Our nation owes them no less, because they have sacrificed 
so much to protect our freedoms.
    I invite each of you to visit Panther Racing and experience what we 
do, and, more importantly, to discover new ways that we can do better 
and improve our efforts on behalf of our magnificent military forces 
and their families. Thank you for this opportunity, and I welcome your 
questions and comments.

                                 <F-dash>
Prepared Statement of Enlisted Association of the National Guard of the 
                       United States (Al Garver)
    The Enlisted Association of the National Guard of the United States 
(EANGUS) was formally organized in 1972 with the goal of increasing the 
voice of enlisted persons in the National Guard. As such, EANGUS is a 
non-partisan non-profit organization dedicated to the principles of 
providing an adequate national defense, while promoting the status, 
welfare, and professionalism of the enlisted men and women of the 
National Guard. EANGUS is the only military service association that 
represents the interests of solely the enlisted soldiers and airmen of 
the Army and Air National Guard.
    With an active membership of 47,000 members and a constituency of 
over 414,000 soldiers, airmen, their families, and retirees; EANGUS 
engages Capitol Hill on behalf of courageous guard members across this 
nation.

    President:
    CSM John F. Helbert, ARNG 703-519-3846

    Staff Contacts:

    Executive Director
    Al Garver 703-519-3846 x40

    Chief of Staff
    Bryan Birch 703-519-3846 x23

    Dir. of Government Affairs
    Seth Waugh 703-519-3846 x28
DISCLOSURE OF FEDERAL GRANTS OR CONTRACTS
    The Enlisted Association of the National Guard of the United States 
(EANGUS) is a member supported organization. EANGUS has not received 
any grants, sub-grants, contracts, or subcontracts from the federal 
government in the past three years. All activities and services of the 
association is accomplished free of any direct federal funding.

    Chairman Flores, Ranking Member Takano, distinguished members of 
the subcommittee on Economic Opportunity, on behalf of the 414, 000 
enlisted men and women of the National Guard and the 47,000 active 
members of the Enlisted Association of the National Guard of the United 
States (EANGUS), thank you for the opportunity to testify today.
    I'd like to inform this committee, in the interest of full 
disclosure, that while my civilian job is Executive Director of EANGUS, 
I am a still-serving citizen-soldier myself, with 30 years of service 
and counting---8 years active duty Air Force, 17 years in the Air 
National Guard, and now five years in the Air Force Reserve, currently 
with the rank of Chief Master Sergeant, and my service includes an 8-
month tour in Iraq.
    I'd like to begin by thanking the members of this subcommittee for 
your support over the past several years, and for your concern with the 
well-being of our citizen-soldiers that serve in our 50 states, 3 
territories, and District of Columbia. Much has been done recently to 
give these soldiers and airmen the resources they need to improve their 
quality of life. We are especially thankful for recognizing their Title 
32 service and making it count toward their Post 9-11 G.I. Bill 
benefits. More than 140,000 Guardsmen now qualify for those benefits, 
and their increased education levels will surely translate into more 
secure and better-paying jobs in the private sector. We are also 
thankful for the medical benefits offered under the Tricare Reserve 
Select Insurance program. There are nearly 50,000 National Guard 
members, most with families, that are currently covered by this 
benefit. I happen to be one of them. I pay a premium of $195 per month, 
which covers myself, my wife, and five dependent children. I'll circle 
back to the significance of those numbers in a few moments.
    Since 9/11 more than 600,000 soldiers and airmen of the National 
Guard have been mobilized and deployed overseas; when you account for 
both Guard and Reservists - the number balloons to more than 1 million 
individuals. Over 50% of the members of the National Guard are now 
combat veterans - these men and women are no longer ``weekend 
warriors'' - but battle tested citizen-soldiers, many of whom are 
returning home to find their only option is the unemployment line.
    It has been estimated by some that 20 percent of returning National 
Guard soldiers and airmen are unemployed. However, if you look at some 
anomalies in those figures the actual percentage may be slightly less, 
due to the fact that many of the younger returning members in the 18-24 
year old range, were in high school or college prior to deploying and 
did not have jobs waiting for them or are continuing their education. 
However; even if you take into account a percentage of returning 
veterans who are resuming or beginning their educational journey, the 
number of unemployed National Guardsmen is still significantly higher 
than the national average.
    We truly believe the vast majority of employers want to hire 
veterans, and that is one reason why the national unemployment rate for 
all veterans is 7.0%, yet the National Guard unemployment is estimated 
to be at least double that number. What is the difference between 
hiring veterans and hiring those in the National Guard? Both veterans 
and Guardsmen have the same or similar leadership skills, are hard 
workers, team players, dependable, and are highly trainable. 
Additionally, they have earned all of those skills and more under some 
of the most difficult situations known to man - during combat - when 
making a mistake doesn't mean you miss a sale, but you lose a life. If 
the skill sets are the generally the same, then why do we have vastly 
different unemployment percentages between the two groups?
    One major reason we believe that National Guard unemployment is 
significantly higher than general veteran unemployment is the current 
operations tempo of the National Guard. Prior to 9/11, employer support 
of the National Guard and Reserves was extremely high. Since 9/11, that 
support has become stressed with the increased call-ups of the National 
Guard for both natural disasters and overseas operations. The men and 
women of the National Guard have been called up multiple times, some 
more than others depending on their skill set. Traditionally, it has 
been DoD policy to mobilize Guard and Reserve units no more than one 
out of every five to six years, but there are some cases, since 9-11, 
where Guard and Reserve units have been mobilized for 48 months in a 60 
month time period. However, the average mobilization is more along the 
lines of 12-18 months in a 60 month period.
    This policy is having a negative impact on the employment prospects 
of National Guard and Reserve members. Employers are having a hard time 
dealing with the loss of their employees during 6-12 month deployments 
every few years. Given the opportunity to choose between two potential 
employees--a veteran and a current member of the National Guard--which 
one would you pick if you were a small business owner? Both applicants 
have similar backgrounds and skill sets, but one is likely to be absent 
on military duty one weekend a month and two weeks a year at a minimum 
. . . in addition to a long deployment looming in the near future. It 
may not be the politically correct or even the right thing to say, but 
you can empathize with the challenge this poses to small business 
owners. All things being equal, many employers would likely pick the 
veteran who has already fulfilled their military obligations and is not 
likely to be called back to duty.
    The previous example applies more to small and medium-size 
businesses rather than large companies such as Wal-Mart who just 
announced their commitment to hire 100,000 veterans over the next five 
years. There are many things that Congress and industry can do 
immediately to help increase National Guard employment.
  Allow Small Business Owners to pay for TRS premiums for their Guard-
                           Reserve Employees
    One proposal that might improve the prospects of a Guardsman or 
Reservist to gain an advantage with small business owners, would be to 
encourage the businesses to provide a stipend that pays for their 
Tricare Reserve Select policy and raise awareness that this is an 
option available. In doing so, the troops would be getting some of the 
best coverage available, and the business owner would reap a 
significant cost-savings by not having to pay for the current health-
care policy they offer. This might save a small business owner anywhere 
from $3,000 to $10,000 or more per year, and would be an immediate 
incentive to hiring Guardsmen and Reservists. Best of all, the troops 
are already entitled to purchase these policies, so no new program has 
to be developed or paid for by Congress or the individual states.
            National Guard Federal Hiring Preference Points
    Currently, veterans receive hiring preference points from federal 
agencies, and this hiring preference is not limited to veterans alone. 
It is also granted to the spouses of an unemployable veteran, the 
unmarried widow or widower of a veteran, or the mother of a deceased or 
disabled veteran. However, many National Guard members do not have the 
requisite Title 10 experience to be recognized as veterans. Many serve 
their country faithfully in homeland defense and disaster relief 
missions here in the CONUS, yet are not eligible to receive any federal 
hiring preference points.
    The men and women of the National Guard posses both civilian and 
military skills that make them fantastic candidates for many positions, 
but they are applying for those jobs with one hand tied behind their 
backs. With the increased ops tempo of the National Guard and Reserves 
for the foreseeable future, the high unemployment rate amongst their 
ranks is likely to continue, and it would be beneficial if federal 
agencies addressed this fact by awarding separate preference points to 
serving members of the National Guard and Reserve. By not recognizing 
their service and assigning veterans preference points, the federal 
government is, in effect, discriminating against some National 
Guardsmen; as if they are not equal to troops who have served on 180-
days or more of Title 10 service. No employer should discriminate 
against the hiring of members of the Guard, especially the federal 
government.
 Making the Transition Assistance Program (TAPS) and Transition Goals 
Plans Success (Transition GPS) work for the average member of the Guard 
                              and Reserve
    The Transition Assistance Program (TAP) provides pre-separation 
services and counseling on a number of transition-related topics to 
those members of the Armed Forces that are separating from service. 
TAPS not only provides assistance on general topics such as healthcare 
and financial planning, but it also has many specific career centric 
focuses as well. Separating military members can also take advantage of 
a three-day employment workshop or a veteran's benefits brief organized 
by the VA. However, TAP services are provided only at military 
installations, which often times are not readily accessible National 
Guardsmen, especially for members of the Guard and Reserves from rural 
portions of the country.
    The TAP program was recently revamped as part of the Veterans 
Opportunity to Work (VOW) to Hire Heroes Act of 2011 and is now called 
Transition Goals Plans Success (Transition GPS). Due to the VOW to Hire 
Heroes Act, TAP is now mandatory for nearly all separating military 
personnel. This mandatory five-day seminar is supposed to give 
transitioning service members an individualized assessment of what 
various civilian career paths are good matches to their military skill 
set.
    However, for members of the National Guard, this mandatory 
participation only applies when Guardsmen come off active duty 
following a mobilization. This means that thousands of Guard members 
will not attend the Transition GPS program when they transition out of 
the Guard, because the existing DoD model is designed and programmed 
around exiting active duty, not part time duty. Realistically, it will 
be very difficult to get a rurally located National Guardsman to travel 
hours away to attend a five-day TAP program before he/she leaves the 
Guard because there are not adequate financial resources for that. 
Conversely, it would be cost-prohibitive to send a mobile TAP team to 
rural armories for a handful of people.
    The Transition GPS program seems to be an effective way to help 
those separating from active-duty. However, despite its good 
intentions, it is not effective for many traditional members of the 
National Guard and Reserves. So what else can be, or is being done, to 
help those serving in the National Guard and Reserves? There are many 
great programs being pursued by private industry and non-profit 
organizations. Programs like VetJobs.com and the U.S. Chamber of 
Commerce's Hiring Our Heroes program.
     US Chamber of Commerce Foundation's Hiring Our Heroes program
    Since its launch in March 2011, the U.S. Chamber of Commerce 
Foundation's Hiring Our Heroes program has been working to help 
veterans, transitioning service members, Guard and Reservists, and 
military spouses find meaningful employment. To do so, Hiring Our 
Heroes has leveraged the U.S Chamber's network of 1,600 state and local 
chambers of commerce and collaborated with other strategic public, 
private, and nonprofit partners to help create a movement across 
America.
    In less than two years, Hiring Our Heroes has hosted more than 420 
hiring fairs in all 50 states, the District of Columbia and Puerto 
Rico. 14,100 veterans and military spouses have been hired as a direct 
result of these fairs, many of whom are or have served in the Guard and 
Reserve. Businesses across America have also stepped up to participate 
in their Hiring 500,000 Heroes campaign launched a year ago. The goal 
is the engage both small and large businesses to commit to hire half a 
million veterans and military spouses by the end of 2014. Thus far, the 
campaign has secured 212,000 commitments and confirmed 93,000 hires.
    One example is Micahel Zetts, who served in the U.S. Army and the 
Minnesota National Guard from 2003 - 2010. After his second deployment 
to Iraq, Michael was ready to transition into a new career. He used his 
GI Bill to go to school for his associate's degree, believing that the 
degree would better prepare him for the job market. After school, 
however, he found himself walking from job fair after job fair for 
almost a year without any offers or leads. Michael told Hiring Our 
Heroes: ``I had been to other career fairs before [and] it seemed like 
being a veteran was a hindrance. I had that experience plus two 
associate degrees. People were either looking for something fresh or 
someone with a lot of experience. I fell in between. At Hiring Our 
Heroes, I felt like people were really talking to me. Afterwards, I was 
pursued by a few opportunities.'' After attending a March 2012 Hiring 
Our Heroes career fair in Columbus, Ohio, Michael accepted an offer 
from Advanced Language Access, Inc. and has offered to help Hiring Our 
Heroes at upcoming job fairs in Columbus, so that he can help others 
like him find veteran-friendly companies that understand the skills a 
veteran can bring to their company.
    While hiring fairs remain a top priority of the Hiring Our Heroes 
program, it is evolving to address the systemic employment issues 
facing veterans, members of the National Guard and Reserves, and 
military spouses. Hiring our Heroes is developing several online tools 
that will serve as valuable resources for the talented men and women 
who have served our country.
    Although the past 10+ years of deployments and increased ops tempo 
of our National Guard citizen soldiers have strained the relationship 
between many employers and military employees, there are still many 
other companies that remain Guard and Reserve friendly. Programs like 
Hiring Our Heroes are acting as a bridge between Guard friendly 
employers and the unemployed men and women currently serving in the 
National Guard. With another million men and women expected to leave 
the military in the next five years, we must all continue to raise 
awareness of this issue as we work every day to hire our heroes.
  Employer Support for the Guard and Reserve and Hero 2 Hired Program
    The DoD established the Employer Support for the Guard and Reserve 
(ESGR) agency 40 years ago with the mission of maintaining employer 
support for Guard and Reserve service. ESGR advocates for pro-Guard and 
Reserve initiatives, recognizes outstanding employer support of the 
Guard and Reserve, helps to mediate conflicts and potential conflicts 
between service members and employers, and to bring increased awareness 
for Guard and Reserve laws and legislation such as USERRA. The core of 
ESGR's mission is to show that Guard and Reservists can, do, and will 
bring their military skills of integrity, global perspective, and 
proven leadership to a civilian workplace. EANGUS is proud to be a 
partner of ESGR and we are encouraged by the fact that they are 
represented here today at this committee hearing.
    One ESGR program that we would like to highlight, is their Hero 2 
Hired (H2H) program. Launched in December 2011, H2H is a comprehensive 
employment program that helps to highlight the unique skills and job 
needs of Reserve Component members. The H2H program is helping to 
reduce the number of unemployed National Guard and Reserve members by 
simplifying their job search while also allowing military-friendly 
company's access to Guard and Reserve job seekers.
    H2H currently has over 108,000 registered job seeker profiles, 
nearly 15,000 employers registered, and as of March 3, 2013 there are 
an estimated 3.7 million job openings available on the H2H website. 
Between October 2012 and February 2013, H2H was able to assist 5,512 
veterans, Guard and Reservists, and military family and spouses in 
finding employment.
                    Southwest Truck Driver Training
    Job fairs and career web pages are tremendous ways to get Guard and 
Reservists in touch with military-friendly employers. But there are 
also many military-friendly employers who go out of their way to help 
our military job seekers. Once such company is Southwest Truck Driver 
Training (SWTDT) school in Tucson, Arizona. Southwest started in 1999 
as a true small business, with a beginning staff of a handful of family 
members and friends - it now has built its reputation throughout 
Arizona, Nevada, and the local communities in which it operates.
    Southwest has a 92% placement rate for their graduates and goes out 
of their way to ensure that Guard and Reservist students are placed 
with military-friendly companies that understand their unique needs, 
monthly drill and training schedules, and possibility of immediate 
call-ups. If Congress and the commanders of our National Guard and 
Reservists are serious about tackling unemployment problems, we need to 
look at all opportunities, including the vocational trades, where there 
are immediate job openings and gainful employment can be obtained. 
According to the U.S. Department of Transportation and the National 
Highway Traffic Safety Administration, 300,000 new truck drivers will 
be needed each year for the next 10 years to meet America's demands.
    During the 112th Congress, the Military Commercial Driver's License 
Act of 2012 was signed into law. The Military CDL Act gave active duty 
military personnel, military reservists, members of the National Guard, 
and others more flexibility in obtaining a Commercial Driver's License, 
in an attempt to help them pursue job opportunities immediately after 
leaving the service. The legislation allowed them to obtain a CDL in 
either the state where they serve or where they received their military 
training, regardless of whether it is their state of permanent 
residence. The legislation was endorsed by the American Trucking 
Association, Owner-Operator and Independent Drivers Association, and 
many Military Service Organizations including EANGUS.
    The Military CDL Act was a great first step, but military truck 
drivers need some additional skills and training to be able to 
effectively operate a tractor trailer. Currently the DoD does not have 
a training program that trains service members to operate civilian 
tractor trailers. Companies like Southwest are able to assist military 
truck drivers gain those additional skills, to include driving ten-
speed manual transmission trucks, how to properly enter information 
into mandated log books, and other service standards. This type of 
training costs between five and six thousand dollars and qualify 
military job seekers to find nearly immediate employment with a salary 
of 40-80 thousand dollars a year. However, the vocational trades are 
often times marginalized by chains of command, which is 
counterproductive to putting unemployed service members in touch with 
companies who are offering gainful employment.
    Veterans use CDLs and vocational trades everyday to work while 
attending post-secondary schooling. Many services members use the 
industry as a short term tool to makes ends meet while they are 
completing their education, but a large percentage also continue in the 
career field. It is not an industry for everyone, but it is a 
respectable option for service-members unemployment woes.
              Consider Exemptions for Military Technicians
    In closing, I'd like to discuss something that can be done 
immediately to save the jobs of 7,600 National Guard troops, and stop 
another 52,000 from becoming ``under-employed.'' While all military 
components are dutifully scrambling to absorb $47 billion in cuts 
throughout the Department of Defense, including the furloughs of 
800,000 military civilians, there is one sub-group that justifies an 
exemption: National Guard Military Technicians.
    Currently, there are 52,000 of these military technicians wearing 
their U.S. Army and Air Force uniforms to work every day, and they 
represent more than half of the National Guard's full time force. While 
they are slated to be furloughed along with the other DoD civilian 
employees, their unique status should merit an exception. Unlike 
regular civilian employees, military technicians are required to be a 
member of the National Guard, attend weekend drills and annual training 
with their National Guard unit, maintain all fitness and readiness 
standards of their active-duty counterparts, and can be involuntarily 
ordered to active duty at any time. National Guard military technicians 
are the primary maintainers of National Guard ground equipment, 
airframes, equipment upgrades, and administrators of training at the 
unit level.
    These uniquely hybrid positions have been developed over decades as 
the most cost-efficient and stable maintenance work-force in the DoD. 
What makes them distinct from other DoD civilians is their title: 
Military Technicians. Their predecessors were known as Civilian 
Technicians, and it was Congress that decided they were more military 
than civilian, authorized them to wear their uniforms to work every 
day, and awarded them that title, along with expectations of fulfilling 
roles and responsibilities beyond that of their former duties.
    The President, Congress, and the DoD all agreed to exempt uniformed 
personnel from the sequester to limit the impact on military readiness. 
We believe the furlough of National Guard Military Technicians violates 
that intent. While they are technically civilian employees, they are 
decidedly uniformed personnel. Allowing half of the National Guard's 
full-time members to be furloughed will result in an immediate 
reduction in the National Guard's operational readiness across all 
state and federal missions. This will greatly impact the Guard's 
ability to respond to domestic emergencies, homeland defense, and 
natural disasters.
    We encourage this committee, through any possible avenues, to make 
provision in the Continuing Resolution to exempt National Guard 
Military Technicians from the impending furloughs of all DoD civilians.
Executive Summary
    Since 9/11 more than 600,000 soldiers and airmen of the National 
Guard have been mobilized and deployed overseas; when you account for 
both Guard and Reservists - the number balloons to more than 1 million 
individuals. Over 50% of the members of the National Guard are now 
combat veterans - these men and women are no longer ``weekend 
warriors'' - but battle tested citizen-soldiers, many of whom are 
returning home to find their only option is the unemployment line.
    It has been estimated by some that 20 percent of returning National 
Guard soldiers and airmen are unemployed. However, if you look at some 
anomalies in those figures the actual percentage may be slightly less, 
due to the fact that many of the younger returning members in the 18-24 
year old range, were in high school or college prior to deploying and 
did not have jobs waiting for them or are continuing their education. 
However; even if you take into account a percentage of returning 
veterans who are resuming or beginning their educational journey, the 
number of unemployed National Guardsmen is still significantly higher 
than the national average.
    The Enlisted Association of the National Guard of the United 
States' (EANGUS) testimony before the House of Representatives 
Committee on Veterans Affairs, subcommittee for Economic Opportunity 
comprises of the following suggestions on ways to improve the 
unemployment rate amongst those serving in the National Guard and 
Reserves:

    - Educate and encourage Small Business Owners to pay for Tricare 
Reserve Select premiums for their Guard & Reserve employees.

    - Investigate allowing for the issuance of Federal Hiring 
Preference Points for National Guard and Reserve service.

    - Making the Transition Assistance Program (TAPS) and Transition 
Goals Plans Success (Transition GPS) work for the average member of the 
National Guard and Reserves.

    - The U.S. Chamber of Commerce Foundation's efforts to help 
veterans through their Hiring Our Heroes program.

    - The Employer Support for the Guard and Reserve (ESGR) agency's 
Hero 2 Hired program

    - How Southwest Truck Driver Training has been able to achieve a 
92% placement rate for their National Guard and Reserve graduates.

    - Working to prevent over 50,000 National Guard Military 
Technicians from being furloughed or laid off, adding them to the 
percentage of unemployed and underemployed members of the National 
Guard.

                                 <F-dash>
           Prepared Statement of Major General David Baldwin
    Early in my tenure as The Adjutant General (TAG) of California I 
became aware of a problem that was reducing the readiness of our force. 
Historically high unemployment and underemployment in our ranks was 
negatively affecting morale, training, accountability, Soldier and 
family resiliency, and good order and discipline. The Work for Warriors 
(WFW) program was developed to solve this readiness problem.
    With a one-time grant from the Speaker of the California Assembly, 
we stood up WFW as a pilot program in July 2012 with the goal to reduce 
unemployment in the California National Guard (CNG) by 25% in one year.
    The WFW team is made up of one Program Manager, two Applicant 
Coordinators, one Information Technology Specialist, and one Business 
Coordinator. In addition, the Department augmented the WFW program with 
an existing State Active Duty position to lead the effort.
    WFW directly places unemployed CNG members into jobs. Private 
sector businesses contact the WFW Business Coordinator with job 
openings. The Applicant Coordinators use the WFW database to identify 
unemployed CNG candidates that meet the specific job requirements. The 
WFW staff then guides the unemployed CNG member all the way through the 
hiring process (resume preparation, interview prep, and employment 
acceptance). The attached enclosure includes the many businesses and 
business partners we are working with to place Guard members into the 
civilian workforce.
    The WFW program is especially effective in reducing the high 
unemployment rates of CNG units returning from deployments overseas. 
We've found that many units returning from deployments have 
unemployment rates well over 50%. This high rate of unemployment had 
remained a problem because federal programs that assist deployed 
reservists do not begin until 180 days after the service member returns 
to California. To close this gap, the WFW staff contacts the units 
while they are still overseas and works with unit leadership to develop 
a plan to immediately reintegrate unemployed Soldiers and Airmen into 
the civilian workforce. Once the unit is back in the United States, the 
WFW staff provides the unit with program information at their federal 
demobilization site, often located in another state, and begins setting 
up job interviews for deployed service members. The results have been 
dramatic. Placing Soldiers and Airmen in jobs immediately upon their 
return from overseas allows for a more successful reintegration and can 
reduce behavioral health problems, substance abuse, and domestic 
violence.
    The success of the program is based on our use of the chain of 
command. Our staff uses the existing CNG chain of command to ensure 
unemployed service members are made aware of the WFW program, and 
encouraged by their first-line leaders to participate. WFW is also 
using social media and web services to get information to service 
members. Leveraging this no-cost method of communication has allowed 
the WFW team to push information quickly to mobile devices and 
computers and place members into jobs as quickly as 24 hours from 
receiving a job opening.
    The WFW program is the most effective direct job placement program 
of its kind in the nation; on average the program places two guardsmen 
every day. The program is remarkably cost effective compared to federal 
standards and represents significant savings to the government when 
factoring in unemployment compensation costs. Successful federal 
veterans' employment initiatives typically have a total cost of over 
$10,000 per veteran placed. The WFW program is averaging a $550 cost 
per placement.
    The following WFW program information incorporates data from the 
program's inception on March 29, 2012 through the 2012 calendar year:

    <bullet>  Number of Service members Directly Asking for Employment 
Support: 2,171
    <bullet>  Number of Resumes Completed: 875
    <bullet>  Number of Resumes Submitted for Interviews: 975
    <bullet>  Number of Service members Placed into Jobs: 965
    <bullet>  Number of Companies Providing Jobs to Fill: 92

    The WFW program has helped hundreds of California's Guard members 
find employment so they can support their families and contribute to 
their communities. This direct placement model is transferable to other 
states that have high unemployment and/or underemployment in their 
National Guard force. It is also directly transferable to the Reserves.
    We will remain committed to this important program until it is no 
longer needed. We are already working with the National Guard Bureau 
and other states to share the program and the best-business-practices 
we have developed. I look forward to working with the Committee to be 
part of the solution in getting our Soldiers, Airmen, and Veterans back 
to work.

                                 <F-dash>
                        Statement For The Record
                    The Reserve Officers Association
EXECUTIVE SUMMARY
    Improvements to increase employment supported by ROA and REA 
follow:

Education:
    <bullet>  Exempt earned benefit from GI Bill from being consider 
income in need based aid calculations
    <bullet>  Develop a standard nation-wide payment system for private 
schools
    <bullet>  Re-examine qualification basis for yellow ribbon program, 
rather than first come first serve.
    <bullet>  Increase MGIB-Selected Reserve (MGIB-SR) to 47 percent of 
MGIB-Active.
    <bullet>  Enact Uniformed Services Employment and Reemployment 
Rights Act (USERRA) and Service members Civil Relief Act (SCRA) 
protections for mobilized Guard-Reserve students to adjust interest 
rates on federal student loans of mobilized Reservists when the market 
rate drops below 6 percent.
Employer Support:
    <bullet>  Continue to enact tax credits for health care and 
differential pay expenses for deployed Reserve Component employees.
    <bullet>  Provide tax credits to offset costs for temporary 
replacements of deployed Reserve Component employees.
    <bullet>  Support tax credits to employers who hire service members 
who supported contingency operations.
Employee Support:
    <bullet>  Permit delays or exemptions while mobilized of regularly 
scheduled mandatory continuing education and licensing /certification/
promotion exams.
    <bullet>  Continue to support a law center dedicated to USERRA/SCRA 
problems of deployed Active and Reserve service members.
Uniformed Services Employment and Reemployment Rights Act (USERRA)/
        Servicemembers' Civil Relief Act (SCRA):

    <bullet>  Improve SCRA to protect deployed members from creditors 
that willfully violate SCRA.
    <bullet>  Fix USERRA/SCRA to protect health care coverage of 
returning service members and family for continuation of prior group or 
individual insurance.
    <bullet>  Broad the types of insurance that the service member is 
entitled to reinstate after returning from military service, such as 
protections for professionals, dental, and disability coverage.
    <bullet>  Enact USERRA protections for employees who require 
regularly scheduled mandatory continuing education and licensing/
certification and make necessary changes to USERRA to strengthen 
employment and reemployment protections.
    <bullet>  Amend SCRA to add a provision that the expiration dates 
of any license or certification issued by any state or federal agency 
(including driver's, nurses', contractor's licenses, etc.) shall be 
extended to a period of 90 days after release from active duty.
    <bullet>  Include protections on leases and contracts impacting 
mobilized small business owners, including the ability to terminate or 
suspend a contract or lease for services or goods.
    <bullet>  Exempt Reserve Component members from federal law 
enforcement retirement application age restrictions when deployment 
interferes in completing the application to buy back retirement 
eligibility.
    <bullet>  Encourage Federal agencies to abide by USERRA/SCRA 
standards.
    <bullet>  Ensure USERRA isn't superseded by binding arbitrations 
agreements between employers and Reserve Component members.
    <bullet>  Make the states employers waive 11th Amendment immunity 
with respect to USERRA claims, as a condition of receipt of federal 
assistance.
    <bullet>  Make the award of attorney fees mandatory rather than 
discretionary.
Veterans Affairs:
    <bullet>  Extend veterans preference to those Reserve Component 
members who is currently serving, or has completed 20 years of service 
in good standing.
    <bullet>  Permit any member who has served under honorable 
conditions and has received a DD-214 to qualify for veteran status.
    <bullet>  Support the issuance of a DD-214R to Reserve Component 
members to accumulate periods of active duty.
INTRODUCTION
    On behalf of our members, the Reserve Officers and the Reserve 
Enlisted Associations thank the committee for the opportunity to submit 
testimony on veteran and National Guard and Reserve employment issues, 
and whether they have improved. ROA and REA applaud the ongoing efforts 
by Congress and this committee to address employment problems faced by 
so many veterans and service members.
    As contingency operations continue with increased mobilizations and 
deployments, many of these outstanding citizen soldiers, sailors, 
airmen, Marines, and Coast Guardsmen have put their civilian careers on 
hold while they serve their country in harm's way. As we have learned, 
they share the same risks and their counterparts in the Active 
Components on the battlefield, but don't have a guarantee of a job when 
they return home. Just recently we passed the 867,000 mark for the 
number of Reserve and Guard service members who have been activated 
since post-9/11. More than 285,000 have been mobilized two or more 
times. The United States is creating a new generation of combat 
veterans that come from its Reserve Components (RC). It is important, 
therefore, that we don't squander this valuable resource of experience, 
nor ignore the benefits that they are entitled to because of their 
selfless service to their country.
    The unemployment rates of veterans and Guard and Reserve have been 
higher than the national average for veterans overall. The Bureau of 
Labor and Statistics reports that in January of this year 36 percent of 
veterans between 18 to 24 years of age were unemployed. This group of 
returning veterans is made up almost entirely of Reserve and Guard 
members.
    While non-affiliated veterans have a better employment rate than 
the national average at 6.9 percent, stealth discrimination continues 
to make employment and even reemployment harder for returning Reserve 
and Guard members, because they are veterans who continue to serve.
EMPLOYMENT
Employment Protections
    Veterans and service members are provided protections through the 
National Committee for Employer Support of the Guard and Reserve 
(ESGR), the Uniformed Services Employment and Reemployment Rights Act 
(USERRA), and the Servicemembers' Civil Relief Act (SCRA).
    Notwithstanding the protections afforded veterans and service 
members, and antidiscrimination laws it is not unusual for members to 
lose their jobs due to time spent away while deployed. Sometimes this 
is by employers who go out of business, but more because it costs 
employers money, time, and effort to reintroduce the employee to the 
company. The National Guard Bureau reports that throughout its 54 
regions, the overall unemployment rate for Guard members is 21 percent.
    In February of this year the unemployment rate for veterans between 
18 to 24 years of age was 36 percent, nearly five times the national 
rate. The unemployment rate for the 25 to 29 year old veterans in 
February was 9.5% down from January's is 14.8%. These higher numbers 
reflect the high percentage of Guard and Reserve in each group.
    Higher unemployment rates for younger Reserve and Guard members 
provide silent testimony to the stealth discrimination that remains. 
Faced with an operational Reserve model, many employers anticipate that 
Reserve Component members will continue to be called up once every five 
years. Smaller businesses can ill-afford to lose key people and remain 
productive. They may congratulate an applicant on his or her military 
service, and then simply fail to follow-up.
    While the USERRA and SCRA laws can be strengthened, working to 
better educate employers needs to be part of any employment campaign.
Small Business hiring of Reserve and Guard members
    Deployment of Reserve and Guard members has the hardest impact on 
small businesses. Such businesses are the backbone of the American 
economy, and are expected to do the majority of the hiring in the near 
future. The Small Business Administration defines a small business 
(depending on the industry) as a business with fewer than 500 
employees. A micro-business is defined as having fewer than 10 
employees.
    ROA supports initiatives to provide small business owners with 
protections for their businesses while a Reserve Component employee is 
on deployment. Employer care plans should be developed in a way that 
will assist with mitigation strategies for dealing with the civilian 
workload during the absence of the service member employee and lay out 
how the employer and employee would remain in contact throughout the 
deployment.
Employer Incentives
    Partnerships: The Army Reserve under Lieutenant General Jack Stultz 
initiated the Employer Partnership Program with civilian employers that 
is an initiative designed to formalize the relationship between the 
Reserve and the private sector, sharing common goals of strengthening 
the community, supporting RC service members and families, and 
maintaining a strong economy. Over 1,000 companies are currently in 
various preliminary stages of implementing partnership programs. This 
sets a model for businesses to hire veterans. The program has its own 
website http://www.employerpartnership.org/ and provides job search, a 
resume builder, professional staff support, a list of employer partners 
and career resources.
    This program grew into the Army's Heroes 2 Hire program, which has 
now been taken DoD-wide.
    Periodic and Predictable: Employers need increased notification 
time in order to better support their personnel. The military services 
and components should provide greater notice of deployments to RC 
members, so that they, as well as their families and their employers, 
can better prepare. Collaboration between industry and the military 
needs to occur as the military considers deployment cycle models so 
that the nation's defense needs are met but its industrial base is not 
compromised.
    Employer care plans should be developed that will assist with 
mitigation strategies for dealing with the civilian workload during the 
absence of the service member employee and lay out how the employer and 
employee would remain in contact throughout the deployment.
    CNGR: The Commission on the National Guard and Reserve suggested 
key recommendations included expansion of the Employer Support of the 
Guard and Reserve (ESGR) committee to be able to work new employment as 
well as reemployment opportunities, the creation of an employer 
advisory council, and regular surveys to determine employer interests 
and concerns over reemployment of Guard and Reserve members. 
Unfortunately, the budget recommendation is to reduce ESGR's budget.
    TRICARE as an employee/employer benefit: An employer incentive is 
when an employee brings importable health care such as TRICARE, 
reducing the costs for the employer. Guard and Reserve members as well 
as military retirees should be permitted to tout the availability of 
TRICARE as an employee asset, and permit employers to provide 
alternative benefits in lieu of health care.
    Another option is to fully or partially offsetting employer costs 
for health care payments for Guard and Reserve members who are 
employed, especially when companies continue civilian health insurance 
for service members and or their families during a deployment. DoD 
should provide employers - especially small businesses - with 
incentives such as cash stipends to help offset the cost of health care 
for Reservists up to the amount DoD is paying for TRICARE, with the 
understanding that the stipend is tied to reemployment guarantees upon 
the serving members return.
    Other incentives: Incentives of various types would serve to 
mitigate burdens and encourage business to both hire and retain 
Reservists and veterans. A variety of tax credits could be enacted 
providing such credit at the beginning of a period of mobilization or 
perhaps even a direct subsidy for costs related to a mobilization such 
as the hiring and training of new employees. Employers felt strongly 
that, especially for small businesses, incentives that arrive at the 
end of the tax year do not mitigate the costs incurred during the 
deployment period. Also cross-licensing/credentialing would ease the 
burden of having to acquire new licenses/credentials in the private 
sector after having gained them during their military service, and vice 
versa.
    While not under this committee's jurisdiction we hope that the 
House Veterans' Affairs Committee can support specific tax incentives 
to hire returning veterans and Guard and Reserve members.
EDUCATION
Montgomery GI Bill
    The Montgomery GI Bill for Selected Reserve should be updated to 
provide better education support. It pales in comparison to the Post 9/
11 GI Bill. The monthly education stipend of $356 for MGIB for Selected 
Reserve is just 11.5 percent of the monthly tuition and allowance of 
$156 for the GI Bill.

    To assist in recruiting efforts for the Marine Corps Reserve and 
the other uniformed services, ROA and REA urge Congress to reduce the 
obligation period to qualify for Montgomery ``GI'' Bill-Selected 
Reserve (MGIB-SR) (Section 1606) from six years in the Selected Reserve 
to four years in the Selected Reserve plus four years in the Individual 
Ready Reserve, thereby remaining a mobilization asset for eight years.
    Because of funding constraints, no Reserve Component member will be 
guaranteed a full career without some period in a non-pay status. BRAC 
realignments are also restructuring the RC force and reducing available 
paid billets. Whether attached to a volunteer unit or as an individual 
mobilization augmentee, this status represents periods of drilling 
without pay. MGIB-SR eligibility should extend for 10 years beyond 
separation or transfer from a paid billet.
SERVICE MEMBERS LAW CENTER
    In the summer of 2009 ROA established the Service Members Law 
Center (SMLC) as a source of excellence in the areas of employment and 
consumer law for active, Guard and reserve personnel. It has been 
contacted by both active and Reserve veterans ever since, average over 
500 phone calls and e-mails monthly.
    The Law Center's goals include the following:

    <bullet>  Advise Active and Reserve members who have been subject 
to legal problems that relate to their military service.
    <bullet>  Continue to publish a series of legal review, informing 
laymen as well as lawyers about employment law.
    <bullet>  Develop a network of legal scholars, law school clinics 
and private practitioners interested in legal issues of direct 
importance to service members.
    <bullet>  Advance world-class continuing legal education on issues 
relating to the Uniformed Services Employment and Reemployment Rights 
Act (USERRA) and the Servicemembers Civil Relief Act (SCRA).
    <bullet>  Broaden the existing database of USERRA and SCRA 
research.
    <bullet>  In conjunction with bar associations, develop standards 
that will help to ensure that lawyers to whom service members are 
referred for legal services have the requisite expertise to represent 
them effectively.

    Recruiting and retaining members of the armed services depends in 
part on assuring current and future National Guard and Reserves 
warriors that laws and regulations are in place to protect them 
effectively from discriminatory practices.
    The Law Center is functioning at a modest but effective level. ROA 
is pursuing efforts to obtain private or public funding and to identify 
public and private entities willing to sustain this effort in order to 
expand this service to fuller capacity. This is especially needed 
following potential cuts to ESGR.
    As part of the SMLC and under director Captain Sam Wright, JAGC, 
USN (Ret.) the Law Center maintains the ``Law Review'' data base and 
indices contain over 700 articles on USERRA and SCRA issues (available 
at www.roa.org/law--review--archive).
    The Law Center's services include:

    <bullet>  Counseling: Review cases, and advise individuals and 
their lawyers as to lawfulness of actions taken against deployed active 
and reserve component members.
    <bullet>  Referral: Provide names of attorneys within a region that 
have successfully taken up USERRA, SCRA and other military-related 
issues.
    <bullet>  Promote: Publish articles encouraging law firms and 
lawyers to represent service members in USERRA, SCRA and other 
military-related cases.
    <bullet>  Advise: File amicus curiae, ``friend of the court'' 
briefs on service member protection cases.
    <bullet>  Educate: Quarterly seminars to educate attorneys a better 
understanding of USERRA, SCRA and other military-related issues.

    The Service Members Law Center is available at www.roa.org/
Servicemembers--Law--Center.
CONCLUSION
    ROA and REA appreciate the opportunity to submit testimony. ROA and 
REA look forward to working with the House Veterans' Affairs 
subcommittee on Economic Opportunity , so that we can present solutions 
to these and other issues, and offer our support, and hope in the 
future of an opportunity to discuss these issues in person.
    ROA and REA encourage this Committee to utilize the Service Members 
Law Center as valuable assets, and to share its law reviews with your 
constituents and other Congressional members.

                                 <F-dash>
                       Submissions For The Record
   Support Letter For Work for Warriors Program (WFW) From: Military 
 Department Office of the Adjutant General, California National Guard, 
                                 (CNG)
              Work for Warriors Program Information Paper
    The Work for Warriors Program (WFW) was established in 2012 with 
funding appropriated in the Department's 2012-13 state budget. The 
mission of the WFW program is to reduce unemployment in the California 
National Guard (CNG) by 25%. State funding provides for the following 
personnel: one Program Manager, two Applicant Coordinators, one 
Information Technology Specialist, and one Business Coordinator. In 
addition, the Department augmented the WFW program with an existing 
State Active Duty position.
    WFW directly places unemployed CNG members into jobs. Businesses 
contact the WFW Business Coordinator and provides details on job 
openings. The Applicant Coordinators identify unemployed CNG candidates 
that meet the specific job requirements. The WFW staff then guides the 
unemployed CNG member all the way through the hiring process (resume 
preparation, interview, and employment acceptance).
    The WFW program also focuses on reducing the high unemployment 
rates of CNG units returning from deployments overseas. CNG units 
returning from deployments have recently reported having 50% civilian 
unemployment rates. Federal programs that assist deployed reservists do 
not begin until 180 days after the service member returns to 
California. To close this gap, the WFW staff contacts the units while 
they are still overseas and prepares them for reintegration into the 
civilian workforce. Once the unit is back in the United States, the WFW 
staff provides the unit with program information at their federal 
demobilization site, often located in another state, and begins setting 
up job interviews for deployed service members. This process has been 
extremely successful in placing Soldiers and Airmen in jobs immediately 
upon their return, thereby reducing the high unemployment rates of our 
returning CNG units.
    With regard to the program's outreach efforts, our staff uses the 
existing CNG chain of command to ensure unemployed service members are 
made aware of the WFW program. The Department is also using social 
media and web services to get information to service members. 
Leveraging this no-cost method of communication has allowed the WFW 
team to push information quickly to mobile devices and computers and 
place members into jobs as quickly as 24 hours from receiving a job 
opening.
    The WFW program has shown to be very effective in placing 
unemployed CNG members. The program is remarkably cost effective 
compared to federal standards and represents significant savings to the 
government when factoring in unemployment compensation costs. 
Successful federal veterans' employment initiatives typically have a 
total cost of over $10,000 per veteran placed. The Department's WFW 
program has a total cost of $500 per placement.
    The following WFW program information incorporates data from the 
program's inception on March 29, 2012 through the 2012 calendar year:

    <bullet>  Number of Servicemembers Directly Asking for Employment 
Support: 2,171
    <bullet>  Number of Resumes Completed: 875
    <bullet>  Number of Resumes Submitted for Interviews: 975
    <bullet>  Number of Servicemembers Placed into Jobs: 965
    <bullet>  Number of Companies Providing Jobs to Fill: 92

    The WFW program has helped hundreds of California's Guard members 
find employment so they can support their families and contribute to 
their communities.

                                 <F-dash>
  Support Letter For Work for Warriors Program (WFW) From: SPC Edwin, 
                                 Lopez
    To whom it may concern,

    My name is SPC Edwin, Lopez. I am a member of the U.S. Army 
National Guard. I have been with the work for warriors program for the 
last few months and it has been one of the most helpful programs I 
could of asked for. I've been under SFC Reyes who has been assisting me 
since I joined. I was let go from my job which I spent 2 years working 
for last year. It has been a struggle since then to find a steady job. 
I eventually lost my car, apartment, and any sense of independence. I 
don't have much family here in California so I found myself jumping 
from couch to couch while actively looking for work. I eventually 
became homeless. It became even harder looking for working when my 
number 1 priority was finding a safe place to sleep and food to eat. I 
then reached out to my father retired SGM Lopez and uncle who referred 
me to the program. SFC Reyes contacted me and from then on out he 
showed a genuine concern for my future and well being that I wasn't 
used to. He contacted me every day to make sure I was ok while actively 
searching for a solution. When I didn't have family here and my unit 
wasn't providing the true help I needed SFC Reyes and his team were 
there for me. Eventually SFC Reyes suggested joining California 
Conservation Core. After going through a plan we agreed it was a great 
option. From there SFC Reyes provided his personal transportation to 
gather what things I had and drove me to the Joint command building to 
provide a night of stay til I left for S. Lake Tahoe the next morning 
which is where my center is. Within that night I met Major Shepard and 
many members of the team. I really felt like family because of how good 
they treated me. They didn't judge me for being in the position I was 
in and had many positive words and ideas for me. They even drove me to 
the local Wal-Mart and gave me money to buy hygiene essentials and 
things I would need to get through until I started getting paid the 
next month at CCC. The whole team was just a large group of people who 
really did wanna help get me out of my current situations. SFC Reyes, 
Major Shepard, and their team did more then just ``their job''. Within 
a few months I went from homeless without a dollar in my pocket to an 
active member of the CCC. I am currently housed in Tahoe eating 3 meals 
a day working and earning certifications that will improve my work 
experience and resume. All of my recent success is in very large part 
of SFC Reyes and the Work for Warriors program. Even now SFC Reyes 
stills contacts me and refers jobs and offerings to me. I cannot thank 
SFC Reyes and his team for all the help they have provided and still 
continue to provide for me! I must say that the Work for Warriors 
program is the most helpful program I have seen in the army. I would 
refer it to any soldier in need and know that they will be taken care 
of. Once again THANK YOU SFC Reyes, Major Shepard, and every single 
member of your team! I don't know where I would be without you guys! 
You are much appreciated!

    Sincerely,

    SPC Edwin, Lopez

    To Whom It May Concern:

    I recently received assistance from the Work for Warriors Program 
to obtain a new Career with Cintas Corporation. SFC Reyes and 1LT 
Mitchell were extremely helpful in providing leads and giving advice to 
get through automated screeners in order to get interviews in a tough 
job market. Since being hired on at Cintas a month ago I am already 
moving up within the company. It took time, but the program was 
instrumental in me finding my new career.

    Sincerely,

    SSG Oldridge, Robert D.

    I began my search about three months ago upon returning from 
Afghanistan. I utilized a number of online web postings and head hunter 
sites without a lot of success. At one of our yellow ribbon events I 
was introduced to Work for Warriors and after talking with some of the 
representatives of the program I decided to check out their website.
    I contacted Work for Warriors by calling the Team phone number list 
on the site and within a few hours I had the application for a job that 
I found the their website as well as a list of documents needed to 
apply. I filled these out and returned them to Work for Warriors who 
liaised with the hiring manager directly to put in my application. This 
was a huge part of the process because now I had an organization that 
the hiring manager was familiar with recommending me to a position. I 
was contacted for an interview a day later.
    The Work for Warriors team prepared me for the interview and told 
me what I needed to bring, wear to the interview and even roll played 
how the interview would go. I went into the interview feeling very 
confident and prepared. About three hours after the interview, I 
received a call saying they wanted to offer me the position.
    Work for Warriors works and works well. The liaison between the 
companies and the Service Member really sets the program apart from 
just applying to online job search engines.

    -James Wolf, 1LT, MI

    Approximately two months ago I was contacted by a member of the 
``Work for Warriors'' program regarding a fellow soldier seeking 
employment. I was listed as one of his character references. As it 
turns out, the member of the program was Sal Reyes, someone that I have 
known for quite some time. After giving him the requested information 
regarding the soldier, we ``caught up'' on old times. It was then that 
he informed me of what he does and the ``Work for Warriors'' program. I 
stated that I was unaware of the program, and had been out of work 
since terminal leave (from deployment) ended in February of 2012. He 
asked for my information and copy of my resume. He came back with 
several employment opportunities throughout the state of California. I 
was insistent on staying in San Diego and in the Aviation field. Sal 
Reyes was persistent and contacted a local employment agency that I had 
previously used during the summer of 2012 but met with no success. I 
was skeptical, and I was wrong. I am currently going through the 
employment process with a large government contractor headquartered 
here in San Diego and expect to begin 13 March 2012. Work for Warriors 
works and I am very grateful! -SFC Helms

                                 <F-dash>
  Los Angeles Times Article `National Guard soldiers and airmen face 
                          unemployment crisis'
      National Guard soldiers and airmen face unemployment crisis
   No longer 'weekend warriors,' an estimated 20% of returning Guard 
 members in the U.S. are jobless. Some employers are reluctant to hire 
   them because, unlike other veterans, they can be called up again.
    November 23, 2012 -- By Alexandra Zavis, Los Angeles Times

    For 1st Lt. Ernest Rodriguez, weekly chats with his young daughter 
via phone or Skype are the highlight of duty in Afghanistan.
    The father from Sacramento desperately wants to come home to 7-
year-old Samantha. But instead, he has signed up for another year in 
the war zone. He needs the money and he knows that returning National 
Guard troops face high unemployment.
    More than half of those in his unit had no work when they got back 
to California in August. Across the country, an estimated 20% of 
returning National Guard soldiers and airmen are without jobs, former 
National Guard Bureau Chief Gen. Craig R. McKinley told Congress 
earlier this year. That is twice the rate for all military veterans who 
have served since September 2001.
    The Obama administration has helped reduce the unemployment rate 
for all recent veterans, from 15% nearly two years ago to 10% last 
month, by developing online tools to help returning troops find jobs, 
working with employers to increase recruitment and retention, and 
signing into law tax credits for hiring veterans.
    But the rate remains stubbornly high for National Guard members and 
military reservists. Some employers are reluctant to hire them because, 
unlike other veterans joining the civilian workforce, they can be 
called up again.
    ``A person cannot run a company with their most valued asset, their 
human capital, being taken away for 12 to 18 months at a time,'' said 
Ted Daywalt, president of vetjobs.com, one of the largest Internet job 
sites for veterans.
    No longer just ``weekend warriors,'' the nation's more than 1 
million National Guard and reserve members have been transformed by the 
wars in Iraq and Afghanistan into frontline forces. Even as the wars 
wind down, the troops are being tapped for peacekeeping duties in 
Africa, Europe and elsewhere. Those in the Guard also have state 
obligations and can be called to respond to brush fires and other 
emergencies.
    Federal law prohibits employers from discriminating against job 
applicants because of their military service. But such discrimination 
can be hard to prove.
    Rodriguez, who is 40 and has a college degree, said he submitted 
hundreds of resumes after he was laid off in 2008 by a Sacramento 
housing developer.
    ``As soon as they found out I was in the Guard,'' he said, ``I got 
hardly any sort of response from anybody.''
    Rodriguez shares custody of Samantha with her mother. By the time 
he received orders to deploy with the 756th Transportation Company, he 
had exhausted his unemployment benefits and was worried about putting 
food on the table. So when a position opened up in another unit in 
Afghanistan, he grabbed the opportunity.
    ``I didn't want to be in the ranks of the deadbeat dads,'' he said.
    Other service members have returned from deployments to find their 
former employers out of business or their positions axed. The law 
generally requires employers to take them back, but not if they would 
have been let go even if they hadn't been called up.
    Veteran unemployment is highest among the young. Like their active-
duty counterparts, many in the Guard enlist out of high school and have 
little or no work experience before they deploy. The demands on the 
military have been so high, some have not needed to look for civilian 
jobs in years.
    When Sgt. 1st Class Edward Duenas got back from Iraq in 2009, many 
openings existed for Guard and reserve members to step in for departing 
active-duty soldiers. The 38-year-old father of two said he quickly 
found work in Washington state preparing other soldiers to deploy until 
he, too, was mobilized to go to Afghanistan with the 756th.
    But he says there are fewer opportunities like that now. He has 
broadened his search to include law enforcement and security jobs. ``I 
get call-backs, but it's very competitive,'' he said.
    His post-deployment leave pay ended in October. He receives 
unemployment benefits. But even with his wife's earnings from a store 
on base, their income has been cut by half.
    Although the job market is improving, advocates for veterans fear 
their employment difficulties will get worse as the U.S. completes its 
drawdown in Iraq and Afghanistan. The Pentagon estimates as many as 1 
million service members will enter the civilian workforce in the next 
five years.
    Guard leadership says unemployment is becoming a force readiness 
issue. ``Soldiers can't show up if they don't have a car, if they don't 
have gas,'' said Maj. Ty Shepard, who heads a state program that aims 
to slash unemployment in the California National Guard.
    1st Lt. Dalia Sanchez, who commands the 756th, also worries about 
the toll it can take on her soldiers' financial stability, family 
relations and mental health.
    ``I think it exacerbates any reintegration issues they already 
have,'' said Sanchez, a social worker in her civilian career. ``It can 
make depression worse, anxiety worse, sleep problems worse.''
    Sgt. 1st Class Timothy King, a military police member from Whittier 
who deployed with the 756th, said his marriage collapsed because he was 
away for three of the last six years. But he needed the deployments 
because he couldn't find civilian work. Now he is in divorce 
proceedings and racking up credit card debt while caring for two young 
children and applying for jobs as a police officer.
    ``After being on deployment where your adrenaline is high every 
single day . . . it's just hard to sit on your butt all the time and 
not do anything,'' he said. ``I don't feel like much of a man 
anymore.''
    Hoping to head off a crisis, the National Guard in California and 
other states is taking a more aggressive approach to unemployment.
    Under a pilot program launched in late January, members of 
Shepard's Work for Warriors program reached out to the 756th to help 
troops start looking for work two months before they returned to the 
United States. They created a database with the service histories and 
educational qualifications of all those in need of employment. And they 
looked for jobs that would be a good fit.
    Trucking and security firms had many openings. But soldiers 
applying for the slots often struggled to translate military skills 
into terms a civilian employer could understand, Shepard said. Work for 
Warriors staff helped them purge their resumes of military jargon and 
focus on skills that would be useful in the workplace: leadership, 
discipline, responsibility.
    Others had skills they could not use because they lacked civilian 
credentials, such as commercial driver's licenses. A new state law will 
allow troops qualified to drive large military vehicles to obtain the 
licenses without taking a road test. The California Trucking Assn. has 
provided vehicles for service members to take the test.
    Work for Warriors also lined up training and certification 
opportunities for Guard members interested in security jobs and will 
soon begin offering the training itself.
    At the same time, Shepard's office has been working to address any 
concerns employers have about hiring Guard members. They can even get a 
soldier excused from training if necessary.
    To date, they have helped find work for more than 300 of the 1,789 
members who contacted them, he said.
    Nearly four months after the return of the 756th, unemployment 
among the 159 current members stands at 17%. That is slightly higher 
than for the California National Guard as a whole and five points 
higher than the state unemployment rate.
    The figures don't include the many Guard members who are using 
their GI Bill benefits to go to school. Guard leaders had high praise 
for the program, which includes a small living stipend. But they worry 
that too many are using the benefit for subsistence rather than to 
upgrade their educational qualifications.
    Unless the economy picks up substantially, Shepard said, they too 
may soon be joining the ranks of the unemployed.
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="badbd6dfc2dbd4dec8db94c0dbccd3c9fad6dbced3d7dfc994d9d5d7">[email&#160;protected]</a>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
